APPENDIX TABLE OF CONTENTS
Page No.
#1

' Case No. AC-2020-0051 Resolution and Notification

2-3

Adverse Puerto Rico Supreme Court Decision

#1

Case No: 20200051 Ruling - Dated January 15, 2021

4

Puerto Rico Supreme Court Adverse Decision

#1

Case No: 20200051 Ruling - Dated October 10, 2020

5

Puerto Rico Supreme Court Adverse Decision

#2

Case No: Klan 2019-0983 Judgment

6-28

Puerto Rico Appeals Court Adverse Decision

#3

Q -2008 -3 -057 -3875 Accusation and Judgment Exhibit XXIII

29-30

Accusations and Adverse Judgments

#4

Q -2008 -3 -057 -3875 Exhibit XXIII Attachment 2F

31-32

Accusation and Adverse Judgment

33-63

Case No: JDP2009-0338 Judgment
Puerto Rico Court of First Instance, Adverse Decision, Revoked

64-65

Certifications of Translations

1

IN THE SUPREME COURT OF PUERTO RICO
_______________COURTROOM IT______________

Josean Toucet, et als
Respondent
V.

No. AC-2020-0051

Carlos W. Santiago, et als
Petitioner

Panel Chamber formed by Associate Judge Mr. Martinez-Torres as President, Associate Judge Mr.
Kolthoff-Caraballo, Associate Judge Mr. Feliberti-Cintron, and Associate Judge Mr. Colon-Perez.

RULING
San Juan, Puerto Rico, on January 15th of 2021.

The first Motion for Reconsideration filed by Petitioner being
thus addressed, same is Denied.

Agreed to by the Court and certified by the Clerk of the Supreme
Court.
[SEAL]
Commonwealth of
Puerto Rico
General Court of
Justice
Supreme Court

(Sgd.)
Jose Ignacio Campos Perez
Supreme Court Clerk

4

IN THE SUPREME COURT OF PUERTO RTC.O
Josean Toucet, et als.
Appellees
v.

No. AC-2020-051

Certiorari

Carlos W. Santiago, et als.
Petitioners

RESOLUTION
In San Juan, Puerto Rico this February 26, 2021.

Having examined the Second Motion for Reconsideration to the Honorable
Court filed by the petitioners, nothing to provide for Mandate in the case was
notified on February 8th, 2021.
It was so agreed by the Court and certified by the Clerk of the Supreme
Court.
Sgd./(Illegible)
Jose Ignacio Campos-Perez
Clerk of the Supreme Court

2

PAGE: 02
COMMONWEALTH OF PUERTO RIGQGENERAL COURT OF JUSTICE
SUPREME COURT
CASE NUMBER - AC-2020-0051
ORIGINAL - J DP2009-0338
APPEALS KLAN201900983

TOUCET, JOSEAN ET AL
RESPSONDENT
Vs.

CIVIL APPEALS
SANTIAGO, CARLOS W. ET AL
APPELLANT

CIVIL ACTION OR CRIME

SANTIAGO, CARLOS W. ET AL
TORRE DE ORO CONDO APT. 2175
808 LUIS A FERRE BLVD.
PONCE PR 00717
NOTIFICATION

CERTIFIED THAT IN REGARDS TO THE SECOND MOTION FOR
RECONSIDERATION THE COURT RENDERED THE ATTACHED RULING:
VARELA ORTIZ, LUIS, ESQ.
licenciadovarelaortiz@gmail.com
ESQ. CLERK PUERTO RICO SUPREME COURT
notificacionesTSPR@gmail.com
IN SAN JUAN, PUERTO RICO ON MARCH 03 OF 2021.

JOSE IGNACIO CAMPOS-PEREZ. ESQ.
SUPREME COURT CLERK
For: Sgd/MILKAY. ORTEGA-CORTIJO
DEPUTY CLERK

3

iN THE SUPREME COURTOFTUERTtTRICtr

Josean Toucet, et als
Respondent
V.

No. AC-2020-0051

Carlos W. Santiago, et als
Petitioner
Panel Chamber composed of Presiding Judge Oronoz-Rodriguez, Associate Judge Mrs.
Pabon-Chameco, and Associate Judge Mr. Feliberti-Cintron.

RULING
In San Juan, Puerto Rico on October 16th of 2020.

The Appellate Allegation submitted by the Petitioner having been addressed,
same is received as Certiorari, and is Denied.

Agreed to by the Court and certified by the Clerk of the Supreme Court.

(Sgd.)
Jose Ignacio Campos Perez
Supreme Court Clerk

[SEAL]
Commonwealth of Puerto Rico
General Court of Justice
Supreme Court

5

COMMONWEALTH OF PUERTO RICO
APPEALS COURT
PANEL II
JOSEAN TOUCET ET ALS.
Respondent

Writ of Appeal from the
Trial Court, Ponce
Superior Court

v.

KLAN201900983

CARLOS W. SANTIAGO ET ALS.
Appellant

Case No.
JDP2009-0338
Subject: Torts

Panel composed by its President, Judge Ramon Torres, Judge Rivera-Marchand, and
Judge Jimenez Velazquez.1
Rivera-Marchand, Presenting Judge.
JUDGMENT
In San Juan, Puerto Rico on July 15th of 2020.
Comes before us Mr. Carlos W. Santiago-Rivera (appellant or mister
Santiago-Rivera), pro se, and requests that Judgment rendered on August 21st of 2019
by the Trial Court, Ponce Superior Court (TC, or primary forum), be revoked. In
stated ruling, the initial forum Granted the complaint regarding torts due to
malicious persecution, submitted by 17 residents of Penuelas, Puerto Rico.2 Let us
now proceed.

1 Judge Nelida Jimenez-Velazquez was appointed through administrative order TA-2020-049,
substituting in for Judge Gretchen Coll-Marti, as result of her retirement from the judiciary.
2 Prior to the trial in full having concluded, Jaime Ruberte-Santiago, Jose L.Toucet-Santiago, and
Miguel Duprey-Castro desisted from their claim against Santiago-Rivera, wherefore, plaintiff party
was formed by the following college students: Luis Touce-Quinones, Miguel Duprey-Martinez,

6

I.
A group of college students and some of their parents, all residing in Rio Sol
Development in Penuelas, filed the captioned case against their neighbor,
Mr. Santiago-Rivera and his mother, Mrs. Josefina Rivera-Estrada3 for alleged
malicious persecution, and requested remedies under the governance of Article 1802
of the Civil Code, 31 LPRA Sect. 5141, for presumptive tort-feasible damages suffered
by all as a consequence of culpable actions by the appellant. As appears within the
docket file, the appellant’s house is different than all others, having its bedroom in
said house’s front, which makes same more prone to noises from the street, or from
the adjoining residences.4 In condensed summary, respondents propounded in their
complaint that they were harassed, defamed and persecuted by the filing of

Raymond Burgos-Quinones, Yamilette Burgos-Quinones, Anette Garcia-Rivera, Hector Garcia-Rivera,
Jaime Ruberte-Figueroa, as well as some of their parents, to wit: Awilda Quinones-Roman (mother of
Josean Toucet-Quinones), Mirna Martinez-Aviles (mother of Miguel Dupre-Martinez), Raymond
Burgos-Santiago (father of Yamilette and of Raymond Burgos-Quinones), Aileen Quinones-Vega
(mother of Yamilette and of Raymond Burgos-Quinones), Hector Garcia-Ferrer (father of Anette and
Hector Garcia-Rivera), Mayra Rivera-Rodriguez (mother of Anette and Hector Garcia-Rivera), and
Isabel Figueroa-Robles (mother of Jaime Ruherte-Figueroa).

Identification number
SEN2020
3 Plaintiff did not, in view of the passing of co-defendant Mrs. Rivera-Estrada, request substitution of
party and desisted from their claim.
4 See Ruling issued on May 19th of 2019 in case JEQ2009-104, and JEQ2009-037.

7

complaints and judicial actions for alleged unnecessary noises, which were dismissed
in full by the TC. 5 After several incidences of a procedural nature, including an
amendment to the complaint, denial of several dispositive motions, among others, the
primary forum then held a trial in full on June 21st, 22nd and 24th of 2016, and on
March 27th and 28th of 2017. The following persons testified for plaintiffs: Josean
Toucet-Quinones, Hector Garcia-Rivera, Raymond Burgos-Santiago, Miguel DupreyMartinez, Awilda Quinones-Roman, Mayra J. Rivera-Rodriguez, Raymond BurgosQuinones, Annette Marie Garcia-Rivera, Hector Garcia-Ferrer, Mirna MartinezAviles, Aileen Quinones-Vega and Isabel Figueroa-Robles.6

Defendant did not

present any evidence whatsoever.
The documentary and testimonial evidence having been thus evaluated, the
Trial Court then issued 103 determinations of fact, among which we point out the
following:
Josean, Miguel, Raymon, Yamilette, Anette, Hector and Jaime
1.
lived within the same development, grew up together, knew each other
since their youth, and frequently gathered at some of the residences of
any of them, during evenings.
Said youngsters would gather to watch sports events and socialize
2.
or hear music, spend time together or to simply have talks. They would
gather at house balconies, and at times on the sidewalks in front of their
residences.
Regardless of whichever house the youngsters gathered at, there
3.
was at all times at least one adult present at the residence. The parents
of the young person at the residence where stated youths met would offer
5 Complaints number Q2008-063, Q2008-3-057=3875, QJEQ2008-104, and JEQ2009-037, and Civil
Case Number JPE2009-0374 (and the remedies pertaining to the latter, KLAN20090873 and
MC-2009-41).
6 The plaintiffs waived presentation of testimony by Antonio Torres and Joicette E. Grana-Hernandez.

8

them snacks, and allowed them to watch TV, hear music, play domino
and any other alternatives which would foster that they remain at their
residences, for purposes of keeping them under supervision. This would
provide them safety and tranquility.
4.
The police always arrived whenever the youngsters gathered. The
police would come by almost every week-end and, occasionally, on week­
days. Those youths who studied in the Metro area were not there
weekdays. On one occasion, at least 4 patrol cars showed up.
Notwithstanding, once Mr. Santiago moved out from the development,
complaints ceased, and the police stopped coming by.
The police presence began when the youths, by then college
5.
students, met for sports events. Prior to that, defendants were the sort
of neighbors who would exchange food from window to window.
6.
The police would interrogate the youngsters whenever they
arrived. They felt intimidated by the police, and did not understand the
reason for their intervention.
7.
All of the plaintiffs began to feel uncomfortable, due to the
continuous presence of the police.
8.
On one occasion while the youngsters were watching a boxing
match at Raymond’s house, Mrs. Rivera called to tell them to lower the
TV (volume), since she was unable to sleep. Attending to her request,
defendants closed the door of their home, and switched the air
conditioner on.
9.
Mrs. Rivera filed complaint number Q 2008-063, under purview
of Law 140, against Josean Toucet, Raymond Burgos, Yamilette Burgos,
Hector Garcia, Jimmy Ruberte and Miguel a/k/a Miguelito, alleging
unnecessary noises, and which was held at the Penuelas Courthouse.
On August 11th of 2008, a Ruling was rendered denying stated
complaint.
10.
Mrs. Rivera and Mr. Santiago prompted a criminal action in
Complaint No. Q2008-3-057-3875, for alleged breach of Article 2 of
Law 131, and Article 247 of the Penal Code (Breach of Peace), against
youngster Josean Luis Toucet-Quinones. A ruling of no probable cause
was rendered on November 13th of 2008 at Penuelas Municipal Court.
Noise and breach of peace had been alleged in said cases.
On November 13th of 2008, Mrs. Rivera and Mr. Santiago filed
11.
complaint number JEQ2008-104 against Josean Toucet, Jimmy
Ruberte, Miguelito Duprey, Nety Garcia, Jinette and Raymond Burgos,
in Penuelas Court, alleging unnecessary noises and disturbances.
Honorable Judge Imghard del Toro Morales ordered that the parties be
summoned.
12.
Mr. Santiago placed them under surveillance and recorded the
plaintiffs on several occasions.

9

13.

Mr. Santiago entered the Facebook and My Space pages for some

of the plaintiffs, using- tliP nprrtP an3 i.ma go nf Q IQ ynnr-nlrl

sent a message which was accepted by all of the former.
14.
The police and Environmental Quality Board appeared to go and
'measure noise levels, without the defendants being able to prevail in
their claim regarding excessive noise.
15.
Case JEQ2008-104 [...] was referred to mediation [...] and
reassigned under number JDOPM2008104.
16.
On April 14th of 2009, defendants Rivera and Santiago filed
complaint number JEQ2009-037 against Josean Toucet Quinones and
Raymond Cesar Burgos.
17.
In complaint number JEQ 2009-037, Mr. Santiago referred to the
respondents as “charlatans”.
18.
After holding the hearing on April 23rd of 2009, the Court issued
a Ruling dismissing complaint JEQ2008-104 and JEQ2009-037, since
the allegations could not be proven. [...] Neither were allegations of
unnecessary noises and breach of peace proven either, and copy of the
notice in the case file was docketed on May 19th of 2017.
19.
On Tuesday, May 26th of 2009, Mr. Santiago filed a Complaint at
Ponce Superior Court, requesting an injunction remedy against
Raymond Burgos, Jimmy Ruberte, Josean Toucet, Miguelito Duprey,
Nety Garcia and Jinette, regarding the allegations which gave rise to
complaints JEQ2008-104 and JEQ2009-037. At same they requested to
cease and desist all unnecessary noises after 10:00 p. m. at night in all
of Street Number 2 at Rio Sol development in Penuelas.
20.
On June 1st of 2009, a Judgment was rendered dismissing the
complaint in case number JPE2009-0374. The following was provided
for therein: The Municipal Court adjudicated the dispute with regards
to the alleged facts. The court lacks jurisdiction, wherefore, the request
is thus denied.
21.
On June 11th of 2009, Mrs. Rivera and Mr. Santiago filed
Complaint No. 2009-3-057-02015, alleging unnecessary and outrageous
noises at residence B-4 of C street, Rio Sol development.
22.
Mr. Santiago appealed the Sentence rendered in case JPE20090374 before the Appeals Court, remedy number KLAN 2009-0873.
23.
On July 3rd, 2009, the Appeals Court rendered Judgment upon
dismissing the writ filed by Mr. Santiago.
24.
Mr. Santiago appealed the ruling by the appeals court in case
KLAN 2009-0873, to the Supreme Court.
25.
On September 11th of 2009, the Supreme Court Denied the
remedy filed by Mr. Santiago.
26.
The actions by defendants affected wholesome living conditions,
and prompted that the youngsters (college plaintiffs) choose to exit from
the safe and controlled environment within their parents home, and go

10

out to spend their time in the town of Penuelas. Stated actions by said
youngsters created anxiety and uneasiness among the parents.________
The actions and allegations by defendants affected the reputation
27.
of stated youths within the community and the town of Penuelas. They
were identified, both downtown and at places of worship (churches), as
delinquents and people of ill repute, in spite of defendants not prevailing
in any of the cases.
Mrs. Mirna Martinez-Aviles suffered from nervousness upon
28.
seeing her son’s anguish when he was summoned to Court. She felt
greatly worried with regards to how her son would react in view of
pressure from the defendants.
Mrs. Isabel Figueroa-Robes (sic.) felt bad, due to the bad
29.
reputation which the situation created by defendants had established
with regards to her family, and in a manner such that she was forced to
request a transfer to Guayanilla, from her job location in Penuelas,
Mr. Hector Garcia Ferrer never was present during the incidents
30.
whenever the police arrived. Nevertheless, the situation created by the
defendants gave her anxiety to a point such that she lost several nights
of sleep.
Mr. Raymond Burgos-Santiago felt quite emotionally affected by
31.
the bad reputation which was being imputed upon his sons among
friends in the town of Penuelas and due to defendant’s actions.
32.
Mrs. Awilda Quinones-Roman came over on several occasions
from San German, where she resided at to Penuelas, whenever she was
advised that the police was intervening with the youngsters.
Mrs. Awilda Quinones-Roman felt anxious, anguished and
33.
ashamed, due to the proceedings which her son was being subjected to
by defendants.
Mrs. Mayra Rivera-Rodriguez felt shocked by the situation.
34.
Defendant’s actions made her anxious, and prompted some sleepless
nights.
Youngster Josean Luis Toucet-Quinones was summoned on
35.
several occasions to the above stated proceedings.
Being exposed to a proceeding made him anxious. He felt that he
36.
should not invite anyone into his home, celebrate any birthdays nor
watch games or boxing matches quietly without the pressure of noticing
the police arrive.
37.
The proceedings to which Josean was subjected to affected his
performance as a student and as an athlete. He missed classes on not
less than 5 occasions, due to the procedures filed by defendants.
Annette appeared at court only once. She never spoke to the police
38.
directly. However, she felt uncomfortable due to the frequency with
which they intervened with them, since she deemed that they were
doing nothing wrong.

11

39.
Yamilette would be afraid each time the police arrived. She went
to the court once. She felt harassed by the police’s continuous presence.
40.
Jaime’s studies were affected due to his continued appearances at
Court. He had to effect adjustments with his teachers, retake tests and
subjects covered in class. He felt worried, frustrated and uncomfortable
by having to provide explanations for his absences, specially to his
basketball trainer.
41.
Jaime would turn anguished by seeing his parents worried. Jaime
did not understand what was happening, and that was why he felt
anguished and harassed.
42.
Hector’s studies regressed due to court visits. He, at that time,
deemed that courts were for delinquents, and the process prompted him
to become anxious. He did not understand the situation.
43.
Miguel felt uncomfortable, nervous and anguished by the worries
which the judicial proceedings raised by the defendants imposed on his
parents.
44.
Raymond felt persecuted by the police’s continued intervention,
and very uncomfortable with the judicial proceedings prompted by the
defendants.
Based on the above, the judge of facts Granted the Amended Complaint filed
on September 28th of 2009. He concluded that malicious persecution alleged against
the defendant had been incepted. He ruled that Mr. Santiago-Rivera acted in bad
faith by raising numerous judicial proceedings (civil plus a criminal one), which failed
to advance on, and precipitated tort-feasible damages to plaintiffs. That is why
compensation was ordered for damages suffered therein, plus the payment of
attorney fees due to recklessness, plus litigation costs.
In compliance with current rules for evaluating damages, the Trial Court
weighed that which was ruled upon in Fonseca v. Oyola 77 DPR 525 (1954). In
Fonseca the Supreme Court ruled that compensation was proper for proven malicious
persecution, and ordered payment of $400 for torts suffered therein. Taking into
consideration the above, the initial forum in the instant case applied the

12

corresponding formula to determine the value of said amount, to the present one, by
using the dollar’s purchase value as a reference point and concluded that such
amount today would be $2,559.04. Notwithstanding, it estimated that stated amount
is unreasonable since different than the case in Fonseca (which dealt with eviction
proceedings), in the captioned case, plaintiffs were intervened by the police and faced
civil judicial proceedings, as well as having a criminal one also initiated. Based on
this theory, the Trial Court ordered payment on favor of all plaintiffs at almost six
times the amount granted with regards to the corresponding calculation as same
ruled in Fonseca, resulting in the following sums:
Order of the payment for the sum of $15,000.00 to each one of the three coplaintiffs, Josean Luis Toucet-Quinones, Hector Garcia-Rivera and Jaime RuberteFigueroa, due to anxiety, worries, annoyances, and anguish suffered due to the
repetitive complaints to the police, and complaints filed against them by defendant,
and for losing classes as result of the unjustified judicial proceedings by him filed.
The Trial Court did not make any particular differentiation between these three coplaintiffs and the rest.
A payment of $10,000.00 was ordered for each one of co-plaintiffs Miguel
Duprey Martinez, Raymond Burgos Quinones, Yamilette Burgos Quinones and
Anette Garcia Rivera, as result of anxiety, anguish and discomforts suffered due to
the recurring complaints to the police plus suits filed against them by the plaintiff.
The Trial Court did not make any particular differentiation between these four coplaintiffs and the rest.

13

For the seven co-plaintiff parents Awilda Quinones Roman, Mirna Martinez
Aviles, Ray Burgos Santiago, Aileen Quinones Vega, Hector Garcia Ferrer, May
Rivera Rodriguez and to Isabel Figueroa Robles, he ordered a payment of $2,500.00
to each for worry, anxiety and anguish suffered for the situation their children were
going through as a result of the filing of litigation against their children.
Moreover, it imposed payment of $15,000.00 in attorney fees, plus expenses and costs
incurred.
Disagreeing, appellant appealed to this Curiam, and imputed commission of
the following errors on the initial forum:
The Honorable Trial Court erred by GRANTING the judgment.
1.
Said judgment fails to mention in its ruling the confession regarding
unnecessary noises and scandals admitted to by plaintiff Josean Toucet.
2.
Error: In the proceedings: At the hearing held on August 23rd of
2008. In the complaint: filed by the People of Puerto Rico against him as
Exhibit XXII. Defendant Carlos W. Santiago appeared with the police
officer, and plaintiff Josean Toucet with his attorney. The agent left the
courtroom without the hearing having ended, and the defendant was at
disadvantage in view of the judicial proceeding. Such negligent actions
by the State prompted that defendant Mr. Carlos W. Santiago be unable
to file his complaint on appeal, due to lack of a police officer or district
attorney present in the courtroom at the moment of the judicial ruling.
Error in the proceedings. In discovery in the interrogatory
3.
portion, I was given 64 written questions by plaintiffs attorneys, all of
these false and whimsical, which I had to answer without presence of
my counsel. Same is unjustified unequal treatment, since the defendant,
by law, has to be accompanied by counsel at all times.
Error: in the proceedings: At the Trial Court, Penuelas Part
4.
(Municipal Court). Plaintiff Josean Toucet was judged on April 23rd of
2009 for the same facts, according to the court’s ruling EXHIBIT XXVIII.
These proceedings were totally unlawful since both rulings relate to the
same case.
Appellant in his writ filed Pro Se, explained that he deemed that the criteria
for a case of malicious persecution had not be proven. Among the reasons identified,

14

he propounded that damages claimed were “highly speculative and improper”, that
there existed no moral damages since all claimants admitted that they had not
suffered damages for their lives continued their normal course, they studied, had good
grades, graduated and are working, and suffered no damages whatsoever. He argued
that plaintiffs lied under oath. He sustained that no evidence was presented to
determine where the calls to the police had originated from.
With regards to the jurisprudence used for evaluating damages, appellant
argued that the case of Fonseca v. Oyola, above, did not apply in the case before us.
He pointed out that from the testimony by co-plaintiff Josean Toucet arises an
admission of facts, as alleged by appellant. He indicated that Toucet was making
unnecessary noises and scandals after 12:00 a.m. Last, he emphasized that his appeal
was based on strict law and equal protection under the law.
The respondent appeared and through his allegations objected to appellant’s
claim, since he deemed that the initial forum correctly applied its analysis and
weighing of the evidence. In view of same, and having the benefit of writs by the
parties, the original docket file and the re-recording of the proceedings, we are now
in a position to pass ruling.
II.
A.

Extra-contractual (Tort) Liability
Our legal system grants a cause of action under torts to whomever suffers

damages due to culpable and negligent actions or omissions of others. Gonzalez
Caban v. JR Seafood, 199 DPR 234 (2017). For such cause of action to advance,

15

plaintiff must establish: (1) that they suffered a damage; (2) due to a culpable or
"negligent "action or omission; and (3) the existence of an adequate causative relation
between stated action or omission, and the damage caused therein. Id. Also see Art.
1802 of the Civil Code, supra. It befalls upon the party requesting indemnity, the
duty to establish all elements in the cause of action for torts by preponderance of the
evidence. SLG Colon-Rivas v. ELA, 196 DPR 855 (2016). Doctrine has defined
damages as “any material or moral undermining caused and counter to any legal
standard, suffered by a person and for which another is liable for.” Sagardia de Jesus
v. Hosp. Aux. Mutuo, 177 DPR 484 (2009).7 Our legal system acknowledges the
existence of two types of damages. Rivera v. S.L.G. Diaz, 165 DPR 408, 428 (2005).8On
one hand we have special damages, -known as physical, patrimonial, pecuniary or
financial torts-, which are any losses affecting tangible assets. Such damages allow
for financial valuation since same directly impact the aggrieved party’s heritage. Id.9
On the other hand there exist so-called moral damages, which are inflicted upon the
beliefs, feelings, dignity, social esteem and physical or mental health of the aggrieved
party. Id. Moral torts is a comprehensive concept which covers from physical or bodily

7 Quoting J. Santos-Briz, Civil Law Treatise, Barcelona, Bosch Ed., 2003, T. Ill, page 457; Ramirez
Ferrer v.Conagra Foods Puerto Rico Inc., 175 DPR 799 (2009); Garcia Pagan v. Shiley Caribbean,
122 DPR 193, 205-206 (1988).
Quoting Cintron Adorno u. Gomez, 147 DPR 576, 587 (1999).
9 Quoting J. Santos-Briz, Torts Law, Privater Law Journal Ed., Madrid, Spain, 1963, page 120.

16

pain, to mental anguish, up to bodily injury or harm. Sagardia de Jesus v. Hospital,
above, pages 500-501.
B.

Malicious persecution
[Mjalicious persecution or unjustified use of legal procedures, constitutes

malicious filing lacking cause of a probable action for any criminal or civil proceeding
against a person, and which produces a damage on that person. Garcia v. E.L.A., 163
DPR 800, 810 (2005). Being malice an essential element of malicious persecution, our
legal system categorizes same as a torts action prompted by an intentional tortfeasible conduct under Article 1802 of the Civil Code, supra. [The Supreme Court]
has reaffirmed on multiple occasions, the general doctrine that in our jurisdiction
existence of an action for torts as the result of a civil litigation, is not acknowledged.
Id. [It has] nevertheless acknowledged, that a person may file a torts action for
malicious persecution whenever the facts of the case reveal extreme circumstances in
which the plaintiff is accosted through unjustified civil or criminal litigation,
maliciously submitted therein. Id.10 [It has] been established that for any action of
such type to be thus successful, the following requirements would need to be complied
with:
1. That a civil action was initiated or criminal proceedings promoted by
the defendant, or on his insistence.
2. That the action or cause ends favorably for the plaintiff.
3. That same was promoted maliciously and without there existing any
probable cause.
4. That plaintiff suffered torts and damages as result of it. Id.

10 Bold and hyphens omitted.

17

As we observe, “one of the four elements of malicious persecution is that the
defendant was reported by the defendant”. Rodriguez v. Waterman Dock Co., 78 DPR
738, 741 (1955). [A] whimsical accusation based on bad faith and lacking reasonable
grounds, would serve as an ingredient for a malicious persecution (cause of) action.
Jimenez v. Sanchez, 76 DPR 370, 377 (1954).
C.

Assessment of Evidence during the Appellate stage and Calculation of

Damages
The task of adjudicating credibility and of determining what actually occurred
shall in greater measure depend upon of the judge’s exposure to the evidence
presented which includes, among other factors, observing the witness’s behavior
while rendering testimony, and hearing his voice. Gomez Marquez v. Periodico
El Oriental, Inc., 2020 TSPR 3, ruling of January 14th, 2020.11 Thus, that appellate
courts do not intervene in weighing in on the evidence, adjudication of credibility and
determinations of fact carried out by trial courts, unless it is proven that the judge
acted prompted by passion, prejudice or partiality, or that a manifest error was
incurred into. Id. Whenever the allegation is one pf passion, prejudice or of partiality
(then) appellate forums must initially verify whether the trial court judge complied
with his function of adjudicating in an impartial manner, since only then can we rely
upon his or her determinations of facts. Id. On the opposite, a manifest error occurs
whenever from an analysis of the totality of the evidence, the appeals court is
convinced that an error was committed, even if there was evidence that sustains the

11 Quoting Davila-Nieves v. Melendez-Marin, 187 DPR 750, 771 (2013). Quotation marks omitted.

18

conclusions of fact by the Court. Id. This standard of review restricts our faculty to
substitute the criterion by the initial forum as to scenarios in which, from the
admitted evidence, there do not exist sufficient grounds to support their ruling. Id.
Differences in legal criteria do not reach such standard. Id.
Insofar as actions regarding torts [it has] been acknowledged that the judicial
task of estimating and valuing damages is difficult and harrowing, since there does
not exist any computer system which allows one to arrive at an exact result under
which all of parties are pleased and delighted. Santiago Montanez v. Fresenius
Medical, 195 DPR 476, 490 (2016). That is why [the Supreme Court has established]
that the appellate courts must not intervene in valuating of damages that is carried
out by the initial forum, except when the amount thus granted results to be
ridiculously low, or insanely high. Id. Such being so, since stated exercise of valuating
damages involves a certain degree of speculation and subjective elements, such as
discretion and a sense of justice and human awareness, by whoever judges the facts.
Id. [T]o evaluate if the compensation granted by the Trial Court was ridiculously low
or insanely high, we have to examine the evidence brought before this forum, and the
amounts granted in similar cases previously resolved. Id., page 491. In that sense, we
concluded that indemnities granted in prior cases constitute a point of initiation, and
a useful reference for passing judgment regarding the concessions then granted by
the primary forum. Id. In any case, such compensations granted in previous cases
need to be adjusted to their current values. Id.

19

III.
In the instant recoursebefore us, appellant argued that the criteria established for
a malicious persecution case had not been met. Moreover, he questioned the damages
granted to respondents, since he deemed that the case of Fonseca v. Oyola, above, did not
apply to this case, wherefore, he pleaded that valuation of the stated damages be
addressed as a matter of Law.
As we have observed, the primary forum Granted the complaint in the captioned
case, since it deemed that the elements for a torts action for malicious persecution had
concurred. The stated cause of action was formed into two groups. On one hand appears a
group of seven youths who alleged to have suffered damages as a result of the constant
police interventions and complaints/judicial actions initiated by their neighbor, the
appellant herein. On the other side, seven parents of stated youths joined the complaint,
as a result of the malicious persecution which their children had suffered. The judge of
facts concluded that the respondents suffered damages since they were harassed, defamed
and persecuted through the filing of complaints and judicial actions for unnecessary
noises, by the appellant, which were at the time totally dismissed by the initial forum.
As these are numerous plaintiffs with different particularities, we need to do
a precise, careful and detached evaluation regarding each plaintiff, their allegations,
proven facts which correspond to each one in an individual manner, as to then
correctly apply the legal rule. The efficacy of a judgment rests upon a comfortable
evaluation of stated applicable rules, to the cause of action due to malicious
persecution. In view of that, and after executing our analysis and complying with all

20

the above, we conclude that it is proper to partially modify the appealed ruling, and
to revoke a part of same.
Although facts of the case are not in controversy, and that factual
determinations arose as specified in the ruling by the initial forum, the Trial Court
(TC) impinged on the applicability of the Law; wherefore, that our participation
becomes proper insofar as modification of the appealed judgment. As we shall later
propound in detail, the elements for a cause of action of malicious persecution did not
arise with respect to several of the respondents (one of the youths, and all of the
parents who formed part of the group of plaintiffs), wherefore we must dismiss the
cause of action with respect to these. Likewise, in accordance to what shall be
indicated, although the Trial Court correctly used the precedent in Fonseca v. Oyola,
above, the granting of nearly six times the damages granted in stated case was not
justified, for which we must thus order modification of the amounts granted for such
effects to the respondents. We therefore explain.
From determinations of fact properly, as formulated by the Trial Court, it
arises that the requirements to successfully initiate a litigation dealing with
malicious persecution were

complied with with respect to

some

of the

plaintiffs/respondents. Same, since some of the respondents herein were not the
subject of any criminal or civil action whatsoever. We shall, for purposes of
illustrating our analysis, present a detailed list below of plaintiffs/ respondents who
appeared as parties in the complaints/judicial proceedings, identified by numbers and
initiated by Mr. Santiago-Rivera, to wit:

21

1.

2.

3.

4.

5.
6.

Josean Toucet-Quinones
a.
Q-2008-063.
b. Q-2008-3-057-3875 (criminal)
c.
Q-JEQ-2008-104
d. JEQ-2009-037
JPE-2009-0374
e.
f.
2009-3-057-02015
Raymond Burgos-Santiago:
a. Q-2008-063
b.
Q-JEQ-2008-104
c.
JEQ-2009-037
d. JPE-2009-0374
Jaime Ruberte-Figueroa
a. JPE-2009-0374
b.
Q-JEQ-2008-104
c.
c. JPE-2009-0374
Miguel Duprey-Martinez
a.
Q-2008-063
b.
Q-JEQ-2008-104
c.
JPE-2009-0374
Yamilette Burgos-Quinones
a.
Q-2008-063
Hector Garcia-Rivera
a. Q-2008-063

From a reading of the determinations of fact and the above indicated list, it
becomes evident that respondent parents and one of the respondent youths —Anette
Garcia-Rivera-were not accused and neither do they appear as defendants or
respondents in any of the complaints presented by the appellant. As it arises from
the above, the TC, upon granting identical damages to all plaintiffs, ordered
compensation for damages not solely to the youths subject of the action filed by
appellant, rather, it ordered that those who do not appear as parties in any case be
indemnified. Those were Anette Garcia Rivera and plaintiff parents Awilda Quinones
Roman, Mayra J. Rivera Rodriguez, Raymond Burgos Quinones, Annette Marie

22

Garcia Rivera, Hector Garcia Ferrer, Mirna Martinez Aviles, Aileen Quinones Vega
and Isabel Figueroa Robles.
The ruling with regards to the parents and Anette Garcia-Rivera runs counter
to one of the requirements for any malicious persecution action: that certain civil or
criminal action has been filed against them. That is, some of the respondents were
not subject to any criminal or action for malicious persecution whatsoever, and not
proceed in their favor. Allowing such an indemnity would run counter to the rule
reaffirmed by the Supreme Court, to the effects that our jurisdiction does not
acknowledge existence of a torts action as a result of the filing of a legal action.12
Therefore, the Trial Court erred by granting damages for malicious persecution in
favor of Anette Garcia Rivera, and respondent parents therein.
The above now overcome, it is proper to address the cause of action filed by the
rest of the respondents. As we had advanced before, they, to prevail in their cause of
action for malicious persecution, must prove that: (1) a civil action or a criminal
procedure had been initiated and promoted against them by Mr. Santiago Rivera; (2)
the action or cause concluded favorably for the respondents; (3) same was advanced
maliciously and without the existence of probable cause, and (4) that respondents
suffered torts and damages as a result.

12 It arises from the allegations in the Amended Complaint that the torts action promoted by
respondents was filed under governance of the malicious persecution doctrine. See, allegations #60
and #61, Appendix, page 152.

23

The record file thus evaluated, we conclude that respondents Josean Toucet
Quinones, Raymond Burgos Santiago, Jaime Ruberte Figueroa, Miguel Duprey
Martinez, Yamilette Burgos Quinones and Hector Garcia Rivera proved and
prevailed in their cause of action. We rule that Mr. Santiago Rivera failed to
demonstrate that the initial forum had acted prompted by passion, prejudice,
partiality or by manifest error as to evidence which it had for its consideration, to the
effect of ruling that such malicious persecution was committed, and that it was proper
to indemnify respondent youths, Therefore, it results that we defer to the adjudication
of credibility and the determinations of facts executed by the Trial Court.
In spite of the above, a seasoned analysis of the evidence presented at the
initial forum and from the filed in the docket record, persuades us to intervene and
change such amounts granted therein as to the effects of indemnifying the
respondents. It is for this reason that from the facts proven thus arise certain
differences between respondents which merit a review in valuation of damages which
was granted to them as a matter of Law. In accordance with what we had stated
above, the Trial Court ordered that Mr. Santiago Rivera pay the following sums:
a.
b.
c.

d.
e.

f.

Josean Toucet Quinones - $15,000.00
Hector Garcia Rivera - $15,000.00
Jaime Ruberte Figueroa - $15,000.00
Miguel Duprey Martinez - $10,000.00
Raymond Burgos Santiago - $10,000.00
Yamilette Burgos Quinones - $10,000.0013

13 On this occasion we shall only refer to the respondent youths, since our previous decision with
regards to Anette and respondent parents makes the mentioning of the latter, unmerited.

24

Moreover, it imposed payment of $15,000.00 in attorney fees, plus incurred
costs and expense's. As we had indicated, it becomes evident from the determinations
of facts by the Trial Court itself, that there were significant differences in the
circumstances of all respondent youths, which merited greater attention and
differentiation in the granting of damages, in accordance to what is established
within our legal standards.
First of all, the Trial Court emphasized the fact that appellant filed a criminal
action to differentiate the instant case from Fonseca v. Oyola, above. Nevertheless,
stated penal action was solely presented against Josean Toucet Quinones, and the
primary forum attributed the alleged aggravating facts over two other co-plaintiffs.
On the other hand, aside from being submitted to a criminal action, Josean was a
defendant in six different civil proceedings. Jaime, in turn, was subjected to three,
and Hector was accused in only one. In spite of this, the primary forum granted the
same amounts of damages to Josean, Jaime and Hector, ($15,000.00). Likewise, the
Trial Court ordered compensation for Yamilette, who was a defendant on one single
occasion (just as was Hector) in the amount of $10,000.00. It is thus noteworthy that
Raymond, a defendant on four occasions, received the same amount as Yamilette did
($10,000.00). All the above demonstrates a lack of consistency and reasonableness
within those compensations granted by the initial forum, meriting that we intervene
therein.
As we noticed, and different than what the appellant argued in his recourse
before us, the Trial Court complied by identifying the precedent in Fonseca v. Oyola,

25

above, as persuasive for compensation in a cause of action for tort-feasible damages
and maliciouspersecutionrNotwithstanding, same had an effect over its applicability
to the facts, upon multiplying the amounts to a point that this resulted as an
extremely high remedy, which is not in tune with the facts proven for the majority of
the respondent youths.
On the other hand, the Court differentiated the case of Fonseca v. Oyola, above,
from the captioned one, since on stated occasion that case dealt with matters of
eviction, whereas in the captioned case, respondents were confronted by the police
and faced civil judicial proceedings, as well as the filing of a criminal one. In quoted
case, the Supreme Court stated:
The court deems that the persistent and contumacious attitude in which
defendant Oyola had been filing eviction actions against the now
plaintiff, as to later desist from same or fail to appear, or as result of
continuous threats which he raised, forcing lady plaintiff Fonseca to
vacate the premises, wherefore her business suffered harm, as well
as her health becoming affected according to her statements, and we
grant credibility to her testimony; she turned nervous, went through
many unpleasant moments, suffering displeasure to a point such that
she dropped weight from 140 to 90 pounds.14
In the captioned case it was of a particular importance that the initial forum
do a calculation of damages, by adjusting the present value of the amount granted in
the case of Fonseca v. Oyola, above. Notwithstanding, the sentencing court granted
respondents certain sums for torts which resulted to be extremely high, thus
detaching itself from its own determinations of facts. Based on the record file before
us, we rule that it was appropriate to differentiate and segregate compensations

14 Fonseca v. Oyola, supra, page 527. Our bold lettering.

26

granted therein among respondent youths and it was not appropriate to increase the
amount for damages - thus'ignoring what was ruled in-Fonseca v. Oyola, whereby the
Supreme Court granted an amount which taken to present values, is equivalent to
$2,559- and to the point of granting six-fold stated damages as were granted in the
first one, without actual grounds or any precedent whatsoever.
Thus, then, in compliance with what is established within the above discussed
rule, it is appropriate to modify those compensations granted, in the following
manner: $2,559 for Raymond Burgos-Quihones, Jaime Ruberte-Figueroa, Miguel
Duprey-Martinez, Yamilette Burgos-Quinones and Hector Garcia-Rivera15; and to
double the amount in favor of Josean Luis Toucet-Quinones, since he was the subject
of the majority of the complaints, including one criminal proceeding.
With respect to the remaining indications of errors, mister Santiago Rivera has
not placed us in a position to conclude as a reviewing forum, that there were any
violations of due process of law. The appellant was represented by counsel during the
proceedings at the Trial Court, and presented no evidence in his favor, wherefore our
intervention is not proper regarding imposition of attorney fees, by the initial forum.
IV.
Due to the indicated grounds, we modify the Judgment issued by the Trial
Court to the effect that the amounts which Mr. Santiago-Rivera must pay, be as
follows: $2,559 to respondents Raymond Burgos-Quinones, Jaime Ruberte-Figueroa,

15 This sum corresponds to the amount granted in the precedent of Fonseca v. Oyola, above, used by
the primary forum and updated to current values.

27

Miguel Duprey-Martinez, Yamilette Burgos-Quinones and Hector Garcia-Rivera; and
$5,118 to Josean Luis Toucet Quinones. We partially revoke the judgment for Anette
Garcia-Rivera and the seven co-plaintiff parents, Awilda Quinones-Roman, Mirna
Martinez-Aviles, Raymond Burgos-Santiago, Aileen Quinones Vega, Hector GarciaFerrer, Mayra Rivera-Rodriguez, and Isabel Figueroa-Robles. So modified, the
judgment is thus confirmed.
Judge Ramos-Torres dissented, since he deems that valuation for damages
thus granted is excessive within the context of the facts.
Notify forthwith.
Agreed to and mandated by the Court and so certified by the Clerk for the
Court of Appeals.
(Signed)
Atty. Lilia M. Oquendo-Solis
Court Clerk

28

EXHIBIT - XXIII
Commonwealth of Puerto Rico
GENERAL COURT OF JUSTICE
Court of First Instance
(Superior, Municipal) Part of
District Subsection of
Penuelas
□ No continuance sheet
□ Includes continuance sheet
POLICE CLAIM NO.
08305703875
ACCUSATION
Related Claim: D-423
Date: August 23, 2008
FILED BY THE PEOPLE OF PUERTO RICO VERSUS:
Name: Josean Toucet
SS: 597-22-1844

Sex:
Place: Ponce
Alias: Date of Birth:
M
n/a
01-26-1989
Address: Urb. Rio Sol Calle 2 B-4 Penuelas

Description:
Driver’s Lie.: n/a
Service Commission: [ ] Operator [ ] Concessionaire
Public
Authorization No.
Misdemeanor:
Crime:
For the offense of: LAW 131 (UNNECESSARY
x
NOISE)____________________________________
Made at: Urb. Rio Sol Calle B-#5 Penuelas P.R.
Date: August 23, 2008
The aforementioned defendant, JOSEAN L. TOUCET QUINONES, there and
Illegally, maliciously, voluntarily and criminally on the date, time and place indicated
above violated the provisions of Law 131 (Unnecessary noise) consisting in shouting
loudly disturbing the peace and tranquility of the prejudiced party herein, MR.
CARLOS SANTIAGO RIVERA.
FACT CONTRARY TO LAW
■ Information and belief
Filed through: □ Personal knowledge
(Handwritten): Agent Jose Rodriguez Roman #20302
Agent Jose Rodriguez Roman #20300 Penuelas Police Station Agent 20302
Address
Name and signature of Accusing Party
Position/Occup ation
Sworn to and Subscribed before me, in Penuelas, P.R., this November 13, 2008 at
11:00 A.M.

29

Hearing scheduled for _
19
□ Arraignment □ Trial
□ Superior Part of
Preliminary Hearing Conference:
Morales
Name of Witness

Age Address
& Phone
No.

□ Preliminary Hearing
□ District Subsection of
Handwritten:

Imghael del Toro

Name & Signature of Judge or Secretary
Examination of Witnesses
Information & Belief
Personal Knowledge
Under
oath

Affidavit

Under
oath

Affidavit

52
x
Penuelas
Carlos Santiago
Rivera
74
x
Josefina Rivera
Penuelas
Estrada
INFORMATION ON THE ACCUSED:
□ Appeared through summons □ Was given legal caution
□ Was accompanied by Atty. Nunez/ Bar Member #
□ Attorney □ Relative □ Other
■ DETERMINATION OF THE JUDGE:
■ No probable cause determined
□ Probable cause
□ Dismissed due to:
□ Lack of interest of Accusers
determined □ Summons
□ The following conditions were imposed related to
□ Without conditions
custody of the accused, conduct, employment, place of living, travel, relations
with victims or witnesses, firearms, in-take of alcohol or drugs, medical or
psychiatric treatment, delivery of personal documents and other (Art. 4, Law
39-Jne-1986)
CONDITIONS
□ In attendance and considered the following nonverbal evidence________________
□ The accused is hereby forewarned that he/she is duly summoned and that if not in
attendance the case may be entertained in the accused’s absence. He/she is also
hereby forewarned that a violation of these conditions will imply probable cause for
failure to appear.
■ It is ordered that a copy of this document be personally delivered to the accused.
Imghael del Toro Morales
Name & Signature of Judge

Date: 11/13/08

[Round WET SEAL]
Commonwealth of Puerto Rico
GENERAL COURT OF JUSTICE
Trial Court (Superior, Municipal) Part of
District Sub-section for Penuelas
30

EXHIBIT - XXIII Attachment 2f
Commonwealth of Puerto Rico
GENERAL COURT OF JUSTICE
Court of First Instance
(Superior, Municipal) Part of
District Subsection of
Penuelas
□ No continuance sheet
□ Includes continuance sheet
POLICE CLAIM NO.
08305703875
ACCUSATION
Related Claim: D-423
Date: August 23, 2008
FILED BY THE PEOPLE OF PUERTO RICO VERSUS:
Name: Josean Toucet
SS: 597-22-1844

Sex:
Place: Ponce
Alias: Date of Birth:
M
n/a
01-26-1989
Address: Urb. Rio Sol Calle 2 B-4 Penuelas

Description:
Driver’s Lie.: n/a
Service Commission: [ ] Operator [ ] Concessionaire
Public
Authorization No.
Misdemeanor:
Crime:
For the offense of: LAW 131 (UNNECESSARY
x
NOISE)____________________________________
Made at: Urb. Rio Sol Calle B-#5 Penuelas P.R.
Date: August 23, 2008
The aforementioned defendant, JOSEAN L. TOUCET QUINONES, there and
Illegally, maliciously, voluntarily and criminally on the date, time and place indicated
above violated the provisions of Law 131 (Unnecessary noise) consisting IN shouting
loudly disturbing the peace and tranquility of the prejudiced herein MR. CARLOS
SANTIAGO RIVERA.
FACT CONTRARY TO LAW
■ Information and belief
Filed by: □ Personal knowledge
Handwritten: Agent Jose Rodriguez Roman #20302
Agent Jose Rodriguez Roman #20300 Penuelas Police Station Agent 20302
Address
Name and signature of Accuser
Position/Occupation
Sworn to and Subscribed before me, in Penuelas, P.R., this November 13, 2008 at
11:00 A.M.
□ Preliminary Hearing
Hearing scheduled for
, 19.
31

□ Arraignment □ Trial
□ Superior Part of
Preliminary Hearing Conference:
Morales
Name of Witness

Age Address
& Phone
No.

□ District Subsection of
Handwritten: Imghael del Toro
Name & Signature of Judge or Secretary
Examination of Witnesses
Information & Belief
Personal Knowledge

Under
oath

Affidavit

Under
oath

Affidavit

x
Carlos Santiago
52
Penuelas
Rivera
74
Penuelas
x
Josefina Rivera
Estrada
INFORMATION ON THE ACCUSED:
□ Appeared through summons □ Was given legal caution
□ Was accompanied by Atty. Nunez/ Bar Member #
□ Attorney □ Relative □ Other

■ No probable cause determined
■ DETERMINATION OF THE JUDGE:
□ Probable cause
□ Lack of interest of Accusers
□ Dismissed due to:
determined □ Summons
□ The following conditions were imposed related to
□ Without conditions
custody of the accused, conduct, employment, place of living, travel, relations
with victims or witnesses, firearms, in-take of alcohol or drugs, medical or
psychiatric treatment, delivery of personal documents and other (Art. 4, Law
39-Jne-1986)
CONDITIONS
□ In attendance and considered the following nonverbal evidence
□ The accused is hereby forewarned that he/she is duly summoned and that if not in
attendance the case may be entertained in the accused’s absence. He/she is also
hereby forewarned that a violation of these conditions will imply probable cause for
failure to appear.
■ It is ordered that a copy of this document be personally delivered to the accused.
Imghael del Toro Morales
Name & Signature of Judge

Date: 11/13/08

[Round WET SEAL] Commonwealth of Puerto Rico
GENERAL COURT OF JUSTICE
Court of First Instance (Superior, Municipal) Part of
District Subsection of Penuelas
32

THE COMMONWEALTH OF PUERTO RICO
COURT OT l lKS l INSTANCE
PONCE JUDICIAL CENTER
SUPERIOR COURT
JOSEAN TOUCET EL AT
Plaintiffs

CIVIL NO.: J DP2009-0338
COURTROOM - 605

Vs.
SUBJECT: TORTS

CARLOS W. SANTIAGO ET AL
Defendants

JUDGMENT
The instant case originated on June 29th of 2009 through the filing of a Complaint for torts
against Mr. Carlos W. Santiago-Rivera and Mrs. Josefina Rivera Estrada. In summary, it was
alleged in same that youths Josean Toucet-Quinones, Miguel Duprey-Martinez, Raymond BurgosQuinones, Yamilette Burgos-Quinones, Anette Garcia-Rivera, Hector Garcia-Rivera and Jaime
Ruberte-Figueroa had been defamed and harassed by the defendants through frequent telephone
calls to the Puerto Rico Police Department, filing of complaints, and unjustified judicial actions16,
alleging that they were making unnecessary noises.17
On August 17th, 2009, the Defendant, after requesting an additional time period for
answering said complaint, filed a Motion requesting Dismissal and/or Elimination of
Allegations. He alleged that in the complaint, no facts are adduced to justify granting of any

16 Judicial action include: (1) Complaints Nos. Q2008-063, JQE2008-104 and JEQ2009-037 in reference to Law 40,
filed at the Penuelas Municipal Court, which were dismissed; (2) Civil No. JPE2009-0374 regarding injunction and
filed at Ponce Superior Court, dismissed due to lack of jurisdiction; (3) Case KLAN200900873, appeal filed at the
Appeals Court, dismissed, due to lack of jurisdiction; (4) Case No. MC-2009-41, appeal filed at the Supreme Court,
denied. Attached jointly with the complaint were various documents relating to stated complaints and judicial
proceedings.
17 Included as plaintiffs, in addition to the seven (7) youths identified above, were the parents for each one of them.
ID Number: SEN2019.

33

remedy to be granted whatsoever; that no required malice for proceeding with the action was
adduced to; that no actual-damage exists; that there exists no active legitimacy by plaintiffs, and
that plaintiffs do not like the defendants and have felt displeased about the complaints which
defendants have legitimately filed due to the actual noises they have produced, and which have
not been resolved among themselves as neighbors.
On September 28th of2009, plaintiffs filed an Amended Complaint, and attached additional
documents. On October 14th of 2009, defendant filed a Second Motion Requesting Dismissal
and/or Elimination of Allegations, in which he repeated the same arguments raised in the writ
dated August 17th of 2009. On October 30th of 2009, plaintiffs filed a Motion Opposing Request
for Dismissal, alleging that there indeed existed allegations regarding specific actions effected
individually and jointly by the defendants and, moreover, that the complaint contained the
necessary elements for torts claim due to malicious persecution. The Court issued an Order dated
November 3rd of 2009, and notified pn November 13th of 2009, denying the motion for dismissal.
On March 15th of 2010, defendant filed a “Third Motion Requesting Dismissal and/or
Elimination of Allegations”, reaffirming that which was alleged in the previously filed requests
for dismissal. Meanwhile, on April 21th of 2010, plaintiffs filed a “Motion Opposing Request for
Dismissal (Third)”. The Court, on May 17th of 2010 and notified on June 4th of 2010, issued a
Ruling denying the request for dismissal and/or elimination of allegations.
Defendant filed, on August 20th of 2010, his Answer to Complaint, denying the
allegations in the complaint and alleging that there was no malice or unlawful intention as to
defendant's actions. They raised, as affirmative defenses, that plaintiffs had incurred in
unnecessary and excessive noises at their community, thus annoying defendants; that there does

34

not exist any causal relationship between damages allegedly suffered by the 17 plaintiffs, and that
the defendants had actedwithin the prerogatives granted to them by law, among others.
Captioned parties filed on September 22nd of 2010, a Report Regarding Management of
the Case, under governance of Rule 37.1 of Civil Procedure. On May 26th of 2011, defendant,
after several procedural incidents regarding discovery of evidence, filed a Motion Requesting
Summary Judgment under grounds that there existed no malice or intent by defendants, since in
their own belief, they were actually disrupted in their domestic tranquility. Notwithstanding,
insofar as to the facts, about which no controversy thus exists, it was indicated that the incidents
regarding calls to the Puerto Rico Police Force were stipulated to, as well as the appearances before
assorted Puerto Rican justice forums, solely remaining the controversy regarding the element of
intent and/or malice filed by plaintiffs against defendants. On June 28th of 2011, plaintiff party
filed a Motion Opposing Summary Judgment, alleging non-breach on the provisions of Rule
36.3 for Civil Procedure, and that the defendant brought forth, “ad verbatim”, the same grounds
from their previous three motions for dismissal. On August 9th of 2011 and notified on August 12th
of 2011, the Court issued a Ruling denying the motion for summary judgment filed by defendants,
since it deemed as necessary that a trial be held, since there existed controversies under dispute
regarding subjective elements, of intent, mental purposes or negligence
The Preliminary Report Between Attorneys was filed by the parties on June 10th of 2011;
same was discussed and accepted by the Court during the hearing on June 20th of 2011. The
defendant, Pro Se, on May 16th of 2012, filed a Motion Requesting Summary Judgment. On
June 18th of 2012, plaintiffs filed a Motion Opposing Summary Judgment & Other Measures.
On July 2th of 2012, the Court issued a Ruling denying the motion requesting summary judgment

35

filed Pro Se by the defendant.18 The Court decreed it: “[substantially similar to the Motion
Requesting Summary Judgmentfiled by attorney Alexandra Rosario-Morell on May 26th of 2011.
Therefore, the Court having ruled upon same on August 9th of 2011, declares same as Denied".
On July 18th of 2012, Mr. Santiago Rivera filed an Informative Motion, Pro Se, in which
he notified the passing of Mrs. Josefina Rivera-Estrada (defendant), on date of July 11th of 2012,
attaching the pertinent death certificate.19
On August 17th of 2012, Mr. Santiago Rivera filed Pro Se, a “Second Motion Requesting
Summary Judgment”. In summary, he alleged in same that he lacked expert evidence to prove
all alleged damages suffered. Plaintiffs requested he be exempted from having to raise arguments
on same, “[fjor it being so frivolous and incorrect under law”, requesting that measures and
sanctions be imposed upon Mr. Santiago-Rivera.20
On December 20th of 2012, a Conference Regarding Status of the Proceedings was held.
The Court accepted the defendant's new legal representative and instructed that the motion for
summary judgment submitted Pro Se be supplemented, or to inform whether same would be
withdrawn. In turn, plaintiffs legal counsel stated their intention not to include the heirs of the
deceased defendant into the litigation, and that they would desisting from their claim against Mrs.
Josefina Rivera-Estrada. The court granted a time period to file the motion.
Plaintiffs, precisely on January 15th of 2013, filed an Informative & Desist Motion,
reporting that they would not amend the complaint to include the Successors of Josefina EstradaRivera and, thus, would desist from stated cause of action. The case continued solely against

18 Notified of July 17th of 2012
19 Mr. Santiago Rivera, in a subsequent writ dated October 25th of 2012, reported that the heirs of principal Josefina
Rivera-Estrada were Carlos Santiago Rivera (defendant), Eric Santiago-Rivera, and Edgardo Santiago-Rivera. On
November 7th of 2012, defendant Mr. Carlos Santiago-Rivera submitted addresses for all of the heirs.
20 See Informative Motion and Request for Remedies filed on October 3rd of 2012.

36

defendant Carlos W. Santiago-Rivera. Thus, on January 18th of 2013, the Court granted a motion
to desist filed by plaintrlts,-rendering a .Partial Judgment without prejudice as to the Estate of
Josefina Rivera-Estrada.
On January 17th of 2013, through his legal representative, filed a Motion for Summary
Judgment, reaffirming his argument that as to prove the alleged emotional damages suffered,
medical or expert evidence would have to be required, which the plaintiffs lacked therein.
Therefore, he sustained that since plaintiffs had no means to prove damages, it was proper to
dismiss the complaint. On February 15th of 2013, plaintiffs filed a Motion Opposing Summary
Judgment, indicating it was still to be determined if there existed malice by defendants, and the
extent and amount of damages to be granted. On April 2nd of 2013, the Court issued a Ruling
denying defendant's request for summary judgment. In stated ruling the court stated among other
things, that “it must still determine if the facts agreed to by the parties were by malice and intent
to harm the plaintiffs. Moreover, damages suffered by plaintiffs have to be determined, if any, as
well as defendant's recklessness, if any. ”
On April 18th of 2013, Mr. Santiago Rivera, in spite of having legal counsel at the time,
filed Pro Se, a writ titled “Third Motion Requesting Summary Judgment”. In essence, restating
the argument that plaintiffs lacked medical evidence or expert testimony to prove alleged damages
suffered. On May 8th of 2013, plaintiffs filed a Motion Regarding a Third Request for Summary
Judgment, and requested that Mr. Santiago-Rivera be ordered to cease from filing Pro Se writs
while having legal representation, and that monetary sanctions be imposed. Through Order dated
July 9th of 2013, the Court clarified it did not dispose over the motion for summary judgment filed
by Mr. Santiago-Rivera, since he had legal representation.

37

On December 6th of 2013, through his legal counsel, Mr. Santiago-Rivera again filed a
Motion for Summary ^Judgment, restating the argument that plaintiffs lacked sufficient
admissible evidence to prove damages. Notwithstanding, stated writ was summarily denied by the
Court on January 8th of 2014, through an Order. Same, under governance of Rule 36.3 of Civil
Procedure, and the case law in Zapata v. JF Montalvo. 189 DPR 414 (2013).
Mr. Santiago, unsatisfied with stated order filed Pro Se on January 28th of 2014 at the
Appellate Court, an “Appellate Allegation to the Honorable Court”. On May 13th of 2014, the
Appeals Court issued a Ruling ordering the Trial Court to remand to it all original files in the
instant case. The Appeals Court rendered Judgment on November 20th of 2014, confirming the
Ruling by a flat-out denial of the request for summary judgment, and in turn, imposed a sanction
of $250.00 in attorney fees against Mr. Santiago-Rivera.
Displeased, Mr. Santiago-Rivera filed a writ of Certiorari to the Supreme Court. The
defendant's request was Denied on February 20th of 2015, for not complying with Supreme Court
Regulations. Likewise denied was a request for reconsideration filed Pro Se by Mr. Santiago
Rivera before stated Court.
On January 25th of 2016, Mr. Santiago Rivera again filed a Pro Se “Motion for Summary
Judgment to the Honorable Court”, raising the same arguments from previous writs, in that
plaintiffs did not suffer damages, and that neither had they any evidence to prove the supposed
damages which they alleged. On February 23rd of 2016, the Court issued an Order stating: “Tardy.
See Rule 36.1”.
Things being as they are, on March 3rd of 2016, Mr. Santiago Rivera filed a “Motion for
Dismissal to the Honorable Court”, Pro Se, in which in essence he again refiled an argument

38

identical to those in previous motions. On March 7th of 2016, the Court denied stated motion
through immediate dismissal.
On March 16th of 2016, Mr. Santiago Rivera filed a Writ of Certiorari to the Court of
Appeals. On April 20th of 2016, the Appellate Court rendered Ruling denying such issuance. M.
Santiago-Rivera appealed stated ruling to the Puerto Rico Supreme Court, which was denied.
Hearing in full began on June 21st of 2016. In stated hearing it was informed that attorney
Jaime Ruberte as well as Mr. Jose L. Toucet Santiago, would desist from their cause of action
against Mr. Santiago Rivera. Same was not opposed by defendant. On that same date, the Court
issued its corresponding Partial Judgment, decreeing same as desisted, docketing stated cause of
action by plaintiffs Jaime Ruberte-Santiago and Jose L. Toucet-Santiago, with prejudice, against
defendant. Hearing in full was continued on June 22nd of 2016. Plaintiffs informed that cause of
action by Mr. Miguel Duprey Castro against the plaintiff would be dismissed. Moreover, testimony
by Hector Garcia Rivera and Raymond Burgos-Santiago was taken, who were duly crossexamined therein. The Court, on that same date, issued Partial Judgment decreeing dismissal and
docketing of the cause of action with prejudice, by Miguel Duprey-Castro against defendant.
On June 24th of 2016 during continuation of said hearing, testimony was taken from Miguel
Duprey Martinez, Awilda Quinones-Roman and Mayra J. Rivera-Rodriguez, who were duly crossexamined. Plaintiffs informed that witnesses Antonio Torres and Joicette E. Granas-Hemandez
would not be used, and who were made available to defendant.
Continuation of the hearing in full was held on March 27th of 2017. Testimonies from
Raymond Burgos-Quinones; Annette Marie Garcia-Rivera; Hector Garcia-Ferrer; Myma
Martinez-Aviles; and Aileen Quinones-Vega, who were duly cross-examined. Meanwhile the
following day, March 28th of 2017, testimony was taken from Isabel Figueroa-Robles, who was

39

also cross-examined by defendant. Plaintiffs submitted their case. Defendant requested a dismissal
due to insufficiency ot the non-suit evidence, under Rule 39.2(c) of Civil Procedure. We heard
arguments by the parties, and the Court Denied the request for dismissal submitted by defendant.
In view of that, defendant informed that it would not submit evidence, and submitted its case. The
Court granted the parties a period of twenty (20) days to file a memorandum of case-law.
On May 22nd of 2017, defendant submitted a Memorandum of Case-law, whereas
plaintiffs did the same on May 26th of 2017, the case thus submitted for consideration by the Court.
All documentary and testimonial evidence submitted by the parties thus having been
examined and weighed, and the credibility provided us through stated testimony, this Court
formulates the following:
DETERMINATIONS OF FACTS
1.

On the date of the facts, Josean Luis Touchet Quinones, hereinafter Josean, was a
minor, single, a college student at Universidad del Este, with physical and postal
address at Rio Sol Dev., #B-4,2nd Street, Penuelas, Puerto Rico 00624. He resided there
with his grandmother, Mrs. Iris Roman. Today he is of legal age, a Chef, and resides in
the State of Florida, USA.

2.

Mr. Jose L. Toucet Santiago is of legal age, married, an employee, and residing at
Quebrada Ceiba Ward, Parcelas Caracoles 1, Toucet Farm, Lot-1, Penuelas, Puerto
Rico 00624. his postal address is C-19, 5th Street, Rio Sol Dev. He is the father of
Josean Toucet Quinones.

3.

Mrs. Awilda Quinones Roman is of legal age, married, employed in Yauco, with
physical address at Guama Ward, Road 362, Km. 5.9, interior, San German; and postal
address: HC01 Guama Ward, Box 8912, San German, PR 00683. She is the mother of

40

Josean Toucet-Quinones.
4.

On the date of the events, Miguel Duprey Martinez, hereinafter Miguel, was a minor,
single, a college student at Interamerican University, with physical and postal address
at Rio Sol Dev., E-l, 5th Street, Penuelas, Puerto Rico, 00624. He resides there with
his family.

5.

Mr. Miguel Duprey Castro is of legal age, married, retired with physical and postal
address at Rio Sol Dev., #E-1, 5th Street, Penuelas, Puerto Rico 00624, and is the father
of Miguel Duprey Martinez.

6.

Mrs. Mima Martinez Aviles is of legal age, married, housewife, physical and postal
address at Rio Sol Dev., #E-1, 5th Street, Penuelas, Puerto Rico 00624. She is the
mother of Miguel Duprey Martinez.

7.

On the date of the events, Raymond Burgos Quinones, hereinafter Raymond, was a
minor, single, a college student at Pontificia Universidad Catolica de Puerto Rico and
resides at Rio Sol Dev., #B-6, 2nd Street, Penuelas, Puerto Rico with postal address
being: #816 Munoz Rivera Street, Penuelas, Puerto Rico 00624. He resides there with
his family.

8.

On the date of the events Yamilette Burgos Quinones, hereinafter Yamilette, was a
minor, single, a college student, and residing at Rio Sol Dev., #B-6, 2nd Street,
Penuelas, Puerto Rico, postal address being: #816 Munoz Rivera Street, Penuelas,
Puerto Rico 00624.

9.

Mr. Raymond Burgos Santiago is of legal age, married, a businessman and residing at
Rio Sol Dev., #B-6. 2nd Street 2, Penuelas, Puerto Rico, postal address being: #816
Munoz Rivera Street, Penuelas, Puerto Rico. He is the father of Raymond Burgos

41

Quinones and Yamilette Burgos Quinones.
10. ■ Mrs. Aileen Quinones'Vega is of legal age, married, a businesswoman and residing at
Rio Sol Dev., #B-6, 2nd Street, Penuelas, Puerto Rico, postal address being: #816
Munoz Rivera Street, Penuelas, Puerto Rico 00624, the mother of Raymond C. BurgosQuinones and of Yamilette Burgos-Quinones.
11.

On the date of the events, Anette Garcia Rivera, hereinafter Anette, was a minor, single,
a college student at Pontificia Universidad Catolica de Puerto Rico, having a physical
and postal address at Rio Sol Dev., #B-10,2nd Street, Penuelas, Puerto Rico 00624. She
resides there with her family.

12.

On the date of the events, Hector Garcia Rivera hereinafter Hector, was a minor, single,
a college student at Pontificia Universidad Catolica de Puerto Rico, having a physical
and postal address at Rio Sol Dev., #B-10,2nd Street, Penuelas, Puerto Rico 00624. He
resides there with his family.

13.

Mr. Hector Garcia Ferrer is of legal age, married, a policeman, having a physical and
postal address at Rio Sol Dev., #B-10, 2nd Street, Penuelas, Puerto Rico 00624. He is
the father of Hector Garcia Rivera and of Anette Garcia Rivera.

14.

Mrs. Mayra Rivera Rodriguez is of legal age, married, a teacher having physical and
postal address at Rio Sol Dev., #B-10, 2nd Street 2, Penuelas, Puerto Rico 00624. She
is the mother of Hector Garcia Rivera and of Anette Garcia Rivera.

15.

On the date of the events, Jaime Ruberte Figueroa, hereinafter Jaime, was a minor,
single, a college student at Universidad del Turabo, and residing at Rio Sol Dev., #C7, 2nd Street, Penuelas, Puerto Rico, having a postal address of PO Box 601, Penuelas,
Puerto Rico 00624.

42

16.

Mrs. Isabel M. Figueroa-Robles is of legal age, married, a nurse and residing at Rio Sol
Dev., #C-7, 2nd Street, Penuelas, Puerto Rico, postal address being: PO Box 601,
Penuelas, Puerto Rico 00624. She is the mother of Jaime Ruberte Figueroa.

17.

Mr. Jaime Ruberte-Santiago is of legal age, married, an attorney and residing at Rio
Sol Dev., #C-7, 2nd Street, Penuelas, Puerto Rico, postal address being: PO Box 601,
Penuelas, Puerto Rico 00624. He is the father of Jaime Ruberte Figueroa.

18.

Carlos W. Santiago-Rivera is of legal age, single, and employee, son of Josefma
Rivera-Estrada and, by the date of the events, was residing at Rio Sol Dev., #B-5, 2nd
Street, Penuelas, Puerto Rico, hereinafter, Mr. Santiago.

19.

Josefma Rivera-Estrada (RIP) is the mother Mr. Santiago, of legal age, single, retired,
and on the date of the events was a resident of Rio Sol Dev., #B-5,2nd Street, Penuelas,
Puerto Rico, hereinafter, Mrs. Rivera. Mrs. Rivera was a cancer patient.

20.

Josean, Miguel, Raymond, Yamilette, Anette, Hector and Jaime lived within the same
development, grew up together, knew each other since adolescence, and would
frequently congregate at night at the residence of any one of them.

21.

The youths would meet to watch sports, socialize, and listen to music, spend time or
simply chat. They would meet at house balconies and at times, on sidewalks facing
their homes.

22.

Regardless of the home in which the youths met, there was always, at minimum, one
adult present at such residence. Parents at the residence where the youths met would
give them snacks, allowed them to watch TV, listen to music, play dominoes, or any
other alternative so they remained at home, for purposes of keeping them under
supervision. This provided them with peace and safety.

43

23.

The police always arrived when the youths met. The police would come by almost
every weekend, and occasionally on weekdays. Youths who studied in the metro area
were never there on weekdays. On one occasion, up to 4 patrol units arrived.
Nevertheless, complaints ceased, and police stopped arriving, as soon as Mr. Santiago
moved out of the development.

24.

Police presence began when the youths, in college by then, met for sports events. Prior
to that, defendants were the sort of neighbors who would exchange food, window-towindow.

25.

Once, police arrived when the youths were exchanging gifts at one of the residences.

26.

The police would question the youth upon arrival. These felt intimidated by the Police,
and did not understand the reason for their interventions.

27.

All plaintiffs began to feel uncomfortable due to the continuous police presence.

28.

On one occasion while the youths were watching a boxing match at Raymond's home,
Mrs. Rivera called tthem to lower their TV, since she was not able to sleep. Heeding
her call, defendants closed the door to the residence, and switched on the air
conditioner.

29.

Mrs. Rivera was a friend of co-plaintiff Aileen Quinones-Vega.

30.

Mrs. Mayra Rivera-Rodriguez is a cousin to Mr. Santiago.

31.

Mr. Santiago stared-down the youths, failing in his attemptis to provoke or incite them.

32.

Mrs. Rivera would refer to such youths as “bandits”.

33.

Co-defendants never spoke with Mrs. Isabel Figueroa-Robles or address any of the
controversies extra-judicially.

34.

Mrs. Rivera filed complaint number Q2008-063 under Law 140, against Josean Toucet,

44

Raymond Burgos, Yamilette Burgos, Hector Garcia, Jimmy Ruberte and Migue a/k/a
Migueiito,-alleging unnecessary noises, which was heard at the Penuelas Court. Ruling
was issued on August 11th, denying the complaint.
35.

Mrs. Rivera and Mr. Santiago filed legal action. Complaint No. Q2008-3-057-3875 for
alleged violation of Article 2 of Law 131, and of Article 247 of the Penal Code
(Disturbance of the Peace), against youth Josean Luis Toucet-Quinones. On November
13th of 2008, the Penuelas Municipal Court issued a ruling of no probable cause. They
alleged disturbance of the peace and noises in these cases.

36.

Mrs. Rivera and Mr. Santiago filed Complaint No. JEQ2008-104 on November 13th of
2008 at Penuelas Municipal Court alleging unnecessary noises and uproar against
Josean Toucet, Jimmy Ruberte, Migueiito Duprey, Nety Garcia, Jinette, and Raymond
Burgos. Honorable Judge Imghard del Toro-Morales ordered the parties be summoned.

37.

Mr. Santiago had surveillance as to record and did record plaintiffs on several
occasions.

38.

Mr. Santiago entered My Space and Facebook pages of some plaintiffs under a name
and image of a 19-year-old-girl, thus posting a message which was accepted by these.

39.

The Police and the Environmental Quality Board appeared as to measure noise levels,
defendants did not prevail as to their claim regarding excessive noises.

40.

Case JEQ-2008-104 was scheduled for December 2nd of 2008 and re-scheduled for
December 16th of 2008. Same was referred over for mediation on stated date.

41.

Case JEQ2008-104 was re-scheduled for March 31st of 2009.

42.

Case JEQ-2008-104 was reassigned by the Court under number JDOPM-2008-104.

43.

On April 14th of 2009, defendants Mrs. Rivera and Mr. Santiago filed complaint

45

number JEQ2009-037 against Jocean Toucet-Quinones and Raymond Cesar Burgos.
44.

In Complaint No. JEQ2009-037, Mr. Santiago referred to respondents as “buffoons”.

45.

After holding the hearing on April 23rd of 2009, the Court issued a Ruling, dismissing
complaints JEQ2008-104 and JEQ2009-037, since same failed to find the allegations
as proven after evaluating the totality of testimony as rendered, plus the demeanor of
the witnesses. Neither were allegations regarding breach of peace and unnecessary
noises proven, copy of said notice in the instant case filed therein on May 18th of 2009.

46.

Monday, May 25th of 2009, was a holiday.

47.

On Tuesday, May 26th of 2009, Mr. Santiago filed a Complaint at the Ponce Superior
Court, requesting a remedial injunction in case JPE2009-0374, against youths
Raymond Burgos, Jimmy Ruberte, Josean Toucet. Miguelito Duprey, Nety Garcia, and
Jinette, regarding the allegations which gave rise to complaints JEQ2008-104 and
JEQ2009-037. In same they requested a cease and desist of unnecessary noises after
10:00 p.m. In the evening in all of Street number 2 of Rio Sol Development of Penuelas.

48.

On June 1st of 2009, Judgment was entered dismissing complaint in case number JPE2009-0374. Same said as follows: “The Municipal Court adjudicated the controversy
relating to the allegedfacts. The Court lacks jurisdiction, thus, said request is denied. ”

49.

On June 11th of 2009, Mrs. Rivera and Mr. Santiago filed Complaint number 2009-3057-02015, alleging scandalous noise in house B-4 at C Street, at Rio Sol Development.

50.

Mr. Santiago appealed the Judgment issued in case JPE2009-0374 before the Appeals
Court, appeal number KLAN 2009-0873.,

51.

Mr. Santiago provided several attachments in stated writ. Among these was complaint
JEQ2009-037 from the Penuelas Municipal Court. Within the writ to the Appeals

46

Court, he erased the word “buffoon” and substituted it for the word youth.
52.

On July 3rd of2009, Appeals Court passed Judgment, denying petition by Mr. Santiago.

53.

On July 10th of2009, Mr. Santiago posed reconsideration of the Appeals Court's ruling.

54.

The Appeals Court on August 4th and notified on August 6th of 2009, issued a DENIED
to the request for reconsideration.

55.

Mr. Santiago appealed the Appeals Court's ruling to the Supreme Court, KLAN 20090873.

56.

The Puerto Rico Supreme Court DENIED the appeal by Mr. Santiago on September
11th, 2009.

57.

Mr. Santiago testified in one proceeding at Penuelas Court, that he would call in Police.

58.

The incidents related to police intervention extended beyond proceedings filed by
defendants at the Court. Same continued during these youths' whole college life period.

59.

Defendants affected daily life for said youths, and a right to safely meet with peers.

60.

Defendants created a hostile environment in their neighborhood, without existing any
just cause for same.

61.

Actions by defendants affected a safe co-existence, and prompted the youths (college
students) to leave the safe and controlled environment of their parents' homes and go
spend time together outside the town of Penuelas. Such actions by the youths created
anxiety and lack of tranquility for their parents (plaintiffs).

62.

The actions and imputations by defendants affected the reputations of said youths
within the community and town of Penuelas. Both in downtown and at gathering spots
(churches), these (youths) were identified as persons of ill repute and as delinquents, in
spite of defendants not having ever prevailed in any one of their cases.

47

63.

Mrs. Mima Martinez-Aviles felt bad and nervous upon noticing her son's anguish when
called to Court. She felt worried of how her son would react under defendant's pressure.

64.

Mrs. Isabel Figueroa-Robles felt bad due to the negative reputation that the situation
created by defendants was bearing upon her family, to an extent that she was forced to
request a transfer her work-place from Penuelas to Guayanilla.

65.

Mr. Hector Garcia-Ferrer never had been present during said incidents whenever police
arrived. Notwithstanding, the situation prompted by defendants caused him anxiety, to
the point that he lost several nights sleep.

66.

Mr. Raymond Burgos-Santiago felt very emotionally affected by the ill reputation
being leveled against his children as result of to the defendant's action, upon those who
knew them within the town of Penuelas.

67.

Mrs. Awilda Quinones-Roman drove to Penuelas on several occasions from her home
town of San German, whenever she was told that police intervened with the youths.

68.

Mrs. Awilda Quinones-Roman felt anxious, anguished and ashamed by the proceedings
that her son was being subjected to by defendants.

69.

Mrs. Mayra Rivera-Rodriguez was surprised by said situation. Defendant's actions
produced her anxiety and z few sleepless nights.

70.

Youth Luis Toucet-Quinones was summoned several times to the above proceedings.

71.

Exposure to stated proceedings caused him anxiety. He felt he could not invite anyone
to his home, to not celebrate birthdays, unable to watch any games or boxing matches
quietly and without the pressure of having the police arrive.

72.

The process to which Josean was subjected to affected his performance as a student
and as an athlete. He missed classes on 5 occasions due to proceedings filed by

48

defendants.
7T.

Anette went to court just once. She never spoke directly to police. However, she felt
discomfort due to the frequency that they intervened with them since she deemed that
they were not doing anything wrong.

74.

Yamilette became fearful every time police arrived. She went to court once. She felt
harassed due to a continuous police presence.

75.

Jaime's studies were affected due to his court appearances. He had to make adjustments
with teachers, and reschedule tests and subjects covered in class. He felt worried,
frustrated, and uncomfortable by having to give explanations for his absences, in
particular to his basketball coach.

76.

Jaime became anguished upon seeing his parents worry. Jaime did not understand what
was happening, and that is why he felt anguished and harassed.

77.

Hector lagged in his studies as a result of the Court attendance. He deemed at the time
that Courts were for delinquents, and the process raised his anxiety. He was unable to
get the situation out of his head.

78.

Miguel felt uncomfortable, nervous, and anguished by the worry that the judicial
proceedings prompted by defendants generated on his parents. He did not understand
the proceedings and felt anguished.

79.

Raymond felt persecuted due to the continuous police interventions, and very
uncomfortable with the judicial proceedings prompted by defendants.

80.

The break-down of those residing in the streets of the development on the date of the
events are as follows:
a. A retired lady of approximately 75 years of age lived alone at house B-l at 2nd

49

Street of the development.
b! A disabled -approximately OU-year-old man lives at B-2, 2nd SUeet uf the
development.
c. A married couple, both around age 60, live at house B-3, 2nd Street of the
development.
d. Plaintiff Josean Toucet, who was studying to be a “Chef' at the “Universidad del
Este” in Carolina, and his 67-year-old grandmother, Mrs. Iris Roman, live at house
B-4 of 2nd Street in the Development,
e. defendants lived in residence B-5 on 2nd Street of the Development.
f.

Mr. Raymond Burgos Santiago, his wife, Mrs. Aileen Quinones Vega along with
their children Raymond C. Burgos Quinones and Yamilette Burgos Quinones, and
Mrs. Genoveva Vega, mother of dona Aileen and grandmother of the youngsters,
who is 86 years old, live at house B-6 at 2nd Street of the development.

g. A married couple over 60 years of age live with their teenage daughter, and on the
date of the events when lawsuit was filed, their granddaughter, then 6 years old,
also lived at house B-7 at 2nd Street of the development. Defendants would call the
woman in this family to lower the volume of her TV, because the noise from her
residence bothered them.
h. A married couple of over 70 years of age, both retired, live at house B-8 on 2nd
Street of the development, by the date of the events for which lawsuit was filed.
i.

A relatively young couple, who have small children aged approximately 7 and 5,
live at house B-9 on 2nd Street of the development.

j.

Plaintiffs, Hector Garcia-Ferrer, a member of the Puerto Rico Police for 25 years

50

and retired from the National Guard, his wife Mayra Rivera-Rodriguez, a teacher
at Head Start, his daughter Marian Garcia-Rivera, Anette Garcla-Rivera and Hecior
Garcia-Rivera, live at house B-10 on 2nd Street of the development,
k. A retired woman of approximately aged 60, lives at house B-l 1 on 2nd Street of the
development and is also raising a baby there.
1.

A married couple who owns a security company, live at house B12 on 2nd Street of
the development.

m. Homes from Block C are located in front of Block B, on 2nd street.
n. A couple of people over 60 years old lives at house C-l at 2nd Street of the
development. They are both retired, and he is a seriously ill handicapped person,
o. A married couple with underage children lives at house C-2 on 2nd Street of the
development.
p. Mrs. Ivette Gelpi, aged 73, lives at house C-3 on 2nd Street of the development, and
by the date when the complaint was filed, lived with her 95-year-old mother, who
subsequently passed away.
q. A married couple, approximately 60 years of age and both retired, live at house C4 on 2nd Street of the development.
r. A married couple over 60 years of age live at house C-5 of 2nd Street at the
development.
s. A married couple over 50 years of age live at house C-6 on 2nd Street of the
development, both full-time workers. She works rotating shifts.
t.

Plaintiffs Jaime Ruberte-Santiago, and his wife Mrs. Isabel M. Figueroa Robles, a
graduate nurse plus her children, plaintiff Jaime Ruberte-Figueroa and his daughter

51

Isabel R. Ruberte-Figueroa live at house C-7 on 2nd street of the development.
u. A married couple made up of retired people in which the husband is disabled lives
at house C-8 on 2nd Street of the development.
v. A married couple formed by a retired nurse who cares for her young granddaughter,
and her retired husband who, by date when complaint was filed, was Commissioner
for the Penuelas Municipal Police, and living at house C-9, 2nd Street of the
development, last house on stated street.
w. Youth Miguel Duprey-Martinez lives with his family at house E-l.
CONCLUSIONS IN LAW
I. The Torts Action for Malicious Persecution
Our Civil Code controls liability for acts or omissions which cause a damage. Civil extracontractual liability within the Puerto Rico legal system, derives from Article 1802 of the Puerto
Rico Civil Code, which provides as follows: “[wjhomever due to action or omission causes harm
to another, through negligence or guilt, becomes obligated to repair the damage caused”. 31
LPRA Sect. 5141. See SLG Pasan-Renta v. Walsreens, 190 DPR 251 (2014); Nieves-Diaz v.
Gonzalez Massas, 178 DPR 820, 843 (2010). The Supreme Court has been emphatic when same
has indicated that for there to exist liability under this reasoning, it is necessary: (i) that there exist
a tort; (ii) a negligent or culpable action or omission; (iii) a causal relationship between the damage
and the culpable or negligent conduct. Nieves-Diaz v. Gonzalez Massas. supra; Lopez v. PorrataDoria. 169 DPR 135, 150 (2006); Pons v. Ensebretson. 160 DPR 347, 354 (2003).
On the other hand, in what is pertinent herein, a malicious persecution or unjustified use of
legal proceedings arises whenever a person has suffered damages and torts, as an immediate result
of a civil or criminal action which has been established against them. Garcia v. ELA, 163 DPR

52

defendants initiated and instigated not only one, but moreover, a series of complaints with the
police plus legal proceedings against plaintiffs herein. Once the defendant moved uul uf-theneighborhood, all complaints against the plaintiff youths ended, and furthermore, the police
stopped coming over.
The second proven element is that all of the actions ended in a manner favorable for the
plaintiff youths. Although defendant propounded that he called the police and went to the Courts
of Justice since in his opinion, the noises were real, the truth is that the merits of the legal
proceedings initiated by the defendant were favorably adjudicated for plaintiffs on all occasions.
In spite of that, defendant has insisted on re-litigating before different judicial forums the same
controversies that had been adjudicated at the Penuelas Court.24 This clearly demonstrates
defendant's attitude of contempt. His persistence in continuing to litigate the same controversy is
a clear demonstration of deliberated, intentional, and malicious conduct. It results evident that legal
actions filed against the plaintiffs were made maliciously without there existing probable cause,
and in evident abuse of Law, thus complying with the third requisite for the cause of action.
Insofar as the last element required for cause of action to be met, we deem that the
determinations of fact performed by this Court, based on the credibility which the witnesses in this
case merited, sustain the conclusion that plaintiffs suffered damages, and that stated damages were
prompted by actions from Mr. Rivera-Santiago. Although no evidence regarding special damages
was presented, it arises from the testimony of the young plaintiffs, that these did suffer mental
anguish due to the shame, discomfort and worries derived from the defendant's culpable actions.
Some of the youths had to skip classes and make special arrangements to appear in court to defend
themselves from the unfounded complaints by the defendant. Insofar as damages claimed by other

24 Exhibits 4, 8 and 9 by plaintiff, Ruling, dated April 23rd of 2009, notified on May 19th of 2009; Complaint filed on
May 26th of 2009, and Judgment dated June 1st of 2009.

60

defendants, to wit, the parents of these youths did, in essence, all testified regarding the fear, lack
of peace, anxiety and worry prompted by defendant's situation with each one of their children, and
because of the legal proceedings to which they have been subjected to. Truly, the anxiety and
mental suffering arise naturally and directly from an unfounded malicious persecution. Fonseca
v. Ovola. supra.
It was established, in accordance with the proven facts, that the motive for these complaints
was
unjustified and in the majority of cases without grounds whatsoever, prompting an intentional,
malicious, and forcing in a continuous manner that parties had to appear on several occasions at
agencies and the court to elucidate the complaints as filed. It is our opinion that defendant's conduct
perfectly adapts to the definition of extreme circumstances prompted by the Supreme Court in the
case of Fonseca v. Ovola. supra, to grant a torts action for malicious persecution due to a civil
action. Therefore, we conclude that the actions by Mr. Santiago-Rivera give rise to the imposition
of liability under the wide provisions of Art. 1802 of the Civil Code, 31 LPRA §5141, and the
imposition of attorney fees for extreme recklessness, evidenced in the litigation of this case.
It now is incumbent upon us, based upon evidence presented, to fairly calculate the
damages suffered by plaintiffs. The Supreme Court has acknowledged that the judicial tasks of
estimating and valuing damages result to be a difficult and anguishing one, since there does not
exist any calculating system which allows one to arrive at an exact result with which all parties are
satisfied and content. Santiago Montanez v. Fresenius Medical Care et al., supra', Rodriguez
et al v. Hospital et al., 186 DPR 889 (2012).
We are aware that cases which grant torts for this cause of action are infrequent. We did
not find any related facts in prior cases which apply to the evidence presented. Notwithstanding,

61

800, 810 (2005); Pares v. Ruiz. 19 DPR 342 (1913).21 The system deems that an essential element
of this idea is malice, wherefore, it is deemed llial an action-which gives rise to a malicious.
persecution is an “intentional tortious conduct”. Therefore, it results that those remedies which
may be granted to a plaintiff are estimated within the torts action under governance of Art. 1802
of the Puerto Rico Civil Code, supra.
It is important to indicate that this concept is a known exception, since the Supreme Court
sustained that prevailing doctrine does not allow for adjudication of damages through filing of a
civil suit.Gimenez Alvarez v. Silen-Maldonado, 131 DPR 91, 96 (1992), Commonwealth Loan
Corp. v. Garcia. 96 DPR 773 (1968); Berrios v. International Gen. Electric. 88 DPR 109 (1963).
It is not, in turn, a cause of action favored by the system. Raldiris v. Levitt & Sons ofP.R., Inc.,
103 DPR 778, 781 (1975). Therefore, due to the exceptional nature of this doctrine, our highest
judicial forum has highlighted the core elements which allow for filing and adjudication of same.
Stated action is proper when a subject has followed “all legalformalities required but who
'perverts' or 'corrupts' them by acting maliciously and without probable cause of action”. Toro
Rivera v. ELA, 194 DPR 393, 408 (2015). Insofar then that for a plaintiff to advance any cause
of action resulting from a

malicious persecution, he has to comply with the following

requirements: (1) that the defendant has submitted a civil cause of action against plaintiff, or
initiated a criminal procedure; (2) that said cause resulted favorably for the plaintiff; (3) that same
was pursued maliciously and without existence of probable cause; (4) that the plaintiff suffered
tort-feasible damages as result of same. Toro Rivera v. ELA. supra, pages 408-409; Parrilla v.
Ranser American of PR, supra. pages 272-273 119931: Ayala v. San Juan Racins Coro., 112
DPR 804, 812 (1982); Fonseca v. Ovola. 77 DPR 525, 528 (1954).

21 This cause of action was acknowledged by the Supreme Court in Pares v. Ruiz. 19 DPR 342 (1913), and ratified in
Jimenez v. Sanchez. 60 DPR 417 (1942).

53

It is proper to point out that in these cases, be it a civil or criminal case, the element of
malice is not presumed. In that sense, and complying with the element Of malice, something morethan a mere intent by defendant to initiate a civil or criminal process against the plaintiff, needs to
be established. H. Brau del Toro, Los Danos y Perjuicios Extracontractuales en Puerto Rico, 2nd
ed., San Juan, JTS Pubis. 1986, at page 112. It has to be determined that the accusation was: (1)
whimsical, and (2) lacked reasonable grounds. Jimenez v. Sanchez. 76 DPR 370, 377 (1954). If
the statement regards a reasonable belief, then no civil liability may be imputed on the defendant.
Id-; Ocasio v. Alcalde Mun. de Maunabo, 121 DPR 37, 60 (1988). Thus plaintiff has to prove
that defendant acted in bad faith, lacked probable cause, plus had a deliberate purpose of causing
ravage and damage. Parrilla v. Ranser American of PR. supra; Gimenez Alvarez v. Silen
Maldonado, supra, page 96; Raldiris v. Levitt and Sons of P.R., Inc., supra, page 782 (1975).
The Puerto Rico Supreme Court has provided, as to these particulars, that to prevail in a cause of
action due to malicious persecution, it needs to be proven that the “defendant maliciously and
actively instigated initiation of the process and that it was not the authorities who, based on their
own evaluation of the facts, decided to prosecute the plaintiff’. Id., page 781; Toro Rivera v.
ELA, supra, page 409.
Last, plaintiff needs to establish that there exists a causal relationship between the
defendant's conduct of maliciously accusing him, and those damages suffered. It results necessary
to prove that the efficient cause of the prejudice thus suffered was the malicious initiation of the
legal means against him Escoda v. Hull Dobbs Co. of PR, 100 DPR 305, 308 (1971).
II. VALUATION OF DAMAGES
Damages, under guidance of Article 1802, supra, may be moral or material. Cintron
Adorno v. Gomez. 147 DPR 576 (1999). Due to same, and although calculation of moral damages

54

lacks, per se, a numerical equivalent, since same are intangible damages such as mental anguish
and suffering, same-may-be-monetarily compensated. Garcia Pagan v. Shilley Caribbean, 122
DPR 193 (1988).
Mental anguish and suffering serve the purpose of indemnifying pain and physical
suffering and mental anguish which a person suffers as result of a culpable or negligent action.
Elba A.B.M. v. U.P.R., supra, and Acosta & Rodas, Inc., v. PRAICO, 112 DPR 583 (1982).
The difficulty in evaluating damages is greater with respect to compensation for anguish and
mental suffering, since these are intangible. Several tort categories are included within said
concept, such as emotional damage, anxiety, loss of affection and other similar damages of an
intangible nature. A. Amadeo Murga, El Valor de los Danos en la Responsabilidad Civil, Volume
I, Esmaco Editors, 1997, pages 220 and subsequent.
Valuation of damages is a function as important a decision if same should or should not be
indemnified. Granting insufficient or ridiculously low amounts as result of damages suffered result
of anti-juridical actions, bears a practical effect of lessening civil liability to which stated actions
has to be subjected to. A. Amaedeo Murga El Valor de los Danos en la Responsabilidad Civil 2nd
Ed., Spain, JB Bosch Editor, 2012, page 19. To the contrary, any excessive valuation bears a
punitive effect alien to our juridical system. The courts, to have the civil system comply with its
ends, needs to seek a more reasonable proportionality between the damage prompted, and the
indemnification thus granted. Id.
The Supreme Court has repeatedly acknowledged that the judicial task of estimating and
valuing damages results to be anguishing and difficult, since there does not exist a calculation
system allowing for one to reach an exact result in which all parties are satisfied and content.
Santiago Montanez v. Fresenius Medical Care et al., 195 DPR 476 (2016); Rodriguez et al v.

55

Hospital et al., 186 DPR 889, (2012); Herrera. Rivera v. SLG Ramirez Vicens. 179 DPR 774,
784 (2010); Urrutia v. A.A.A.. 1UJ DPR o43 (19/3). Stated valuation always entails a certamdegree of speculation. Nevertheless, the right to be compensated cannot be simply defeated by a
speculative nature which, in some measure, a calculation of damages entails. Odriozola v. S.
Cosmetic Dist. Corp.. 116 DPR 485 (1985).
According to the opinion of the Supreme Court in Santiago Montanez v. Fresenius
Medical Care et al., supra, and Rodriguez Et Al v. Hospital Et Al, supra; Herrera. Rivera v.
SLG Ramirez Vicens. supra. It is indicated that after a comparative exercise is effected, it is then
proper to examine the particular circumstances of the case.
III. ATTORNEY’S FEES DUE TO RECKLESSNESS
Imposition of attorney fees is discretionary. Notwithstanding, whenever a party has
proceeded recklessly the court must then impose, within the judgment, payment of an amount for
attorney fees. Such recklessness therefore decided, then granting of attorney then becomes
mandatory. Vega v. Luna Torres, 126 DPR 370 (1990). To said effects, Rule 44.1 of Civil
Procedure, 32 LPRA App. V, R. 44.1(d) controls imposing of attorney fees as follows, in its
pertinent part:
In case that any party or their attorney has proceeded either recklessly or
frivolously, the court must impose within its judgment to whomever so responsible,
payment of an amount in concept of attorney fees, which the court deems as proper
for stated conduct. [...]
Recklessness is not defined within above quoted rule; however, the'Supreme Court has
stated that “recklessness is an attitude which projects itself over the proceedings, and which affects
a proper functioning, and the administration o/justice”. Jarra Corp. v. Axxis Corp. 155 DPR
764 (2001). Likewise, our highest forum has indicated that imposition of attorney fees for
recklessness “pursues punishment upon those litigants who force other persons to incur into

56

unnecessary expenses by filing frivolous litigation, or unnecessarily prolonging those already
filed”. (Our emphasis HJliveras, Inc, v. Universal Ins. Co.. 141 DPR 900, 935 (1996); ElbaA.B.M. v. U.P.R.. 125 DPR 294 (1990); Fernandez v. San Juan Cement Co., Inc., 118 DPR
713 (1987). Stated in another manner, conduct which merits imposing the payment of attorney
fees is that one “which makes necessary a litigation that could have been avoided, which
unnecessarily extends same, or requires that the other party carry out unnecessary steps.” Bias v.
Hosp. Guadalupe. 146 DPR 267, 335 (1998).
It has been repeatedly ruled that the decision regarding recklessness exclusively depends
on, if the Magistrate who presided over the proceedings arrives at a conclusion as to whether the
party or its attorney, acted in a reckless of whimsical manner, or not. Ramos Baez v. Bossolo
Lopez. 143 DPR 567,571 (1997); CNA Casualty of P.R. v. Torres-Diaz, 141 DPR 27,43 (1996);
Miranda v. E.L.A., 137 DPR 700, 719 (1994); Revlon v. Las Americas Trust Co.. 135 DPR
363 (1994). Now, although the decision regarding recklessness rests upon the Judge's sane
discretion, once he or she determines the existence of same, “the judgment for attorney fees
becomes mandatory”. Fernandez v. San Juan Cement Co., Inc., 118 DPR 713, 717 (1987).
Stated imposition of attorney fees as a sanction towards reckless conduct pursues to dissuade
against unnecessary litigation and to promote transactions, by punishing that litigant whose
persistence, contempt, and insistence on a frivolous and groundless attitude, forces the other party
to incur into expenses and bother which a litigation entail. Bias v. Hosp. Guadalupe, supra,
Torres Ortiz v. E.L.A.. 136 DPR 556, 565 (1994); Mendez v, Moreales, 142 DPR 26,40 (1996).
We shall therefore proceed in accordance with the above stated substantive and
procedural system, to adjudicate the complaint posed for our consideration.

57

Captioned complaint was based upon a claim for torts due to alleged malicious persecution
and abuse ot law. Plaintiffs alleged that defendant, Mr. Santiago, in a frequent and unfounded
manner, would phone Puerto Rico Police agents, so that they intervene with plaintiff youths and
that, moreover, he initiated legal actions geared towards defaming and harassing them.22
Furthermore, that defendant prompted filing of numerous unjustified complaints and judicial
litigation against these youths. Defendant denied all the allegations against him.
We must recall that actions for abuse of rights and malicious persecution bear the following
common requirements: that the current defendant was who instigated the previous litigation; that
stated litigation ended favorably for the current plaintiff; that the prior action was filed without
probable cause and with malice; that same resulted in damages. The above indicated interpretative
jurisprudence is clear-cut when affirming that for the sole fact of reporting commission of a crime
to authorities, no liability needs to be imposed upon the defendant; rather, that it must be
demonstrated that the process was initiated by said party actively and maliciously. Parrilla Baez
v. Airport Catering Services, supra, page 273; Raldiris v. Levitt & Sons of P.R., Inc., supra.
Wherefore defendant bears the burden of proving the element of malice under factual grounds, and
not through simple vague allegations or mere conclusions in law. Toro Rivera et als v. ELA, supra.
In the instant case, the Court has determined the facts which evidence the existence of four
elements which a cause for malicious persecution requires. The first proven element is the
initiation of civil procedures against all of plaintiff youths, Josean Luis Toucet-Quinones, Miguel
Duprey-Martinez,

Raymond Burgos-Quinones, Yamilette Burgos-Quinones, Anette Garcia-

22 In accordance with what we propounded in the procedural tract portion, included within the complaint were Mr.
Santiago Rivera, as well as his mother, Mrs. Josefina Rivera-Estrada (RIP). Mrs. Rivera-Estrada passed away during
the course of the litigation. The Court eventually issued a Partial Judgment dated January 19th of 2013, dismissing the
cause of action against the estate, without prejudice. In view of this, Mr. Santiago-Rivera remained as the sole
defendant.

58

Rivera, Hector Garcia-Rivera, and Jaime Ruberte-Figueroa, as well as the initiation of a criminal
proceeding against youth plaintiff Josean Luis Tuucel-Quinonesr-Prcciscly during the years 2008
and 2009, defendant filed the following
complaints and judicial actions against plaintiffs:
a) Complaint No. Q2008-063 under guidance of Law 140, against Josean Toucet,
Raymond Burgos, Yamilette Burgos, Hector Garcia, Jimmy Ruberte and Miguel a/k/a
Miguelito.
b) Complaint No. Q2008-3-057-3875 against youth Josean Luis Toucet-Quinones for
alleged violation of Law 131, and Art. 247 of the Penal Code, and 2 reports dated
November 13th of 2008, against Josean Toucet, under Law 131 and Article 247 of the
Penal Code.
c) Complaint No. JEQ2008-104 against Josean Toucet, Jimmy Ruberte, Miguelito
Duprey, Nety Garcia, Jinette, Raymond Burgos, for alleged unnecessary noises and
disorder.
d) Complaint No. JEQ2009-037 against Raymond Burgos, Jimmy Ruberte, Josean Toucet.
and Raymond Cesar Burgos.
e) Complaint No. JPE2009-0374 against Raymond Burgos, Jimmy Ruberte, Josean
Toucet, Miguelito Duprey, Nety Garcia and Jinnette, requesting a cease and desist for
unnecessary noises after 10:00 p.m. at night in all of 2nd street of Rio Sol development
in Penuelas.
f) Complaint No. 2009-3-057-02015, alleging unnecessary noises at residence B-4 on 2nd
street, Rio Sol Dev., Penuelas.
Furthermore, in accordance with the above determinations of fact stated, it surfaces that
police would always arrive whenever the youths met. Precisely from the Ruling issued on April
23rd of 2009 from Municipal Judge Edwin Flores-Selles, admitted as documentary evidence, it
arises that the herein complainants, Mr. Santiago-Rivera and Mrs. Rivera-Estrada, “[...]havefiled
more than ten complaints to the police for unnecessary noises and disturbance ofpeace. [...]”
and that “[t]he police has seen the youths peacefully gathered, either watching TV, playing
dominoes or conversing”,23 Likewise, on one occasion both the Police as well as the
Environmental Quality Board appeared at the neighborhood as to measure the alleged noise (level),
and plaintiffs were not able to prevail in their claims regarding excessive noise. To wit, then the

23 Exhibit 4 by Plaintiffs, Ruling dated April 23rd of 2009, notified on May 19th of 2009.

59

in compliance with the directive from our highest judicial forum, we did use the legal precedent in
the case of Fonseca^r

for the first time.

granted compensation as result of malicious persecution, through a civil action. On stated occasion,
defendant filed several complaints for eviction against plaintiff, forcing her to pay a higher rental
contract, and to intimidate and force her to vacate the apartment rented to her. The malicious
persecution consisted in having unsuccessfully sued the tenant on 3 occasions alleging non­
payment. As arises from the Court's opinion, plaintiff was harmed in her business and her health
was affected since, as she so testified, she turned nervous and went through a lot of bad moments.
The trial court ruled in favor of plaintiff and awarded her the sum of $400 for torts as suffered,
(legal) costs plus $100 for attorney fees, which was subsequently confirmed by the Supreme Court.
Upon projecting stated sum to the present, the result obtained is $2,559.04, which constitutes a
current value of the amount awarded in the legal precedent identified herein. Stated amount results
to be unreasonable for compensation of the plaintiffs.
Unlike in the case of Fonseca v. Ovola, above, the herein plaintiffs were approached by
police on numerous occasions due to the constant complaints filed and for phone calls made by
defendant and, moreover, have had to appear at several unjustified judicial proceedings. In
considering the particular circumstances of the instant case, we deem it reasonable to make
adjustments in accordance with the testimony and evidence presented, and grant for torts and
damages suffered the following stated sums.
1. $15,000.00 to each one of co-plaintiffs Josean Luis Toucet-Quinones, Hector
Garcia-Rivera and Jaime Ruberte-Figueroa, for anxiety, worries, annoyance and
anguish suffered due to the recurring grievances to the Police and complaints filed
against them by the defendant, and having to miss classes as a result of the

62

unjustified legal proceedings by him filed.
:v-Martinez, Raymond

2. $10,000.00 fur-each one of co plai-

Burgos Quinones, Yamilette Burgos-Quinones and Anette Garcia-Rivera, due to
the anxiety, worry and anguish suffered from the recurring grievances made to
police, and the complaints filed against them by defendant.
3. $2,500.00 each for co-defendants Awilda Quinones-Roman, Mima MartinezAviles, Raymond Burgos-Santiago, Aileen Quinones-Vega, Hector Garcia-Ferrer,
Mayra Rivera-Rodriguez and Isabel Figueroa-Robles, for the worry, anxiety and
anguish suffered, due to the situation which their children were going through.
Pursuant to the above stated this Court enters Judgment GRANTING the Amended
Complaint filed on September 28th of 2009. Consequently, defendant is ordered to pay plaintiffs
the above stated sums for torts and damage suffered. Moreover, and considering the recklessness
evidenced during litigation as may be verified in the instant case file, the sum of $15,000.00 is
imposed on Mr. Carlos W. Santiago-Rivera for attorney fees, plus costs and expenses incurred
during the litigation, sums which shall accrue interest at a rate of 6.5% percent a year from the date
when complaint was filed, and up to its full and complete disbursement.
REGISTER AND NOTIFY FORTHWITH.
In Ponce, Puerto Rico, this 21st of August, 2019.

FRANCISCO J. ROSADO COLOMER
(Sgd.)
Superior (Court) Judge

63

CERTIFICATION

CERTIFIED: That the attached document(s) is (are) true and correct translation(s)
of the original documents) from Spanish into English.
Moreover, that I am a Federally Certified Court Interpreter & Translator for the
Administrative Office of the U. S. Courts within the active fist of Certified
Interpreters and Translators at the U.S. District Court, for the District of Puerto Rico.

Carlo* T. Rat/eloAOUSC Certification # 95-063

64

nF.RTTFTCATTON

CERTIFIED: That the attached document(s) is (are) true and correct translation(s)
of the original documents) from Spanish into English.
Moreover, that I am a Federally Certified Court Interpreter & Translator for the
Administrative Office of the U. S. Courts within the active fist of Certified
Interpreters and Translators at the U.S. District Court, for the District of Puerto Rico.

Carioi'T. RcweloAOUSC Certification # 9S463

re

65

